Audit Report




OIG-07-022
Audit of the United States Mint’s Fiscal Years 2006 and
2005 Financial Statements


December 21, 2006




Office of
Inspector General
Department of the Treasury
     The Mint strives to ensure that their documents are accessible;
to obtain a text version of the Mint’s 2006 Annual Report, see the Mint’s:
        Web Accessibility and Section 508 Compliance policy page
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 21, 2006


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                 Joel A. Grover
                                  Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Audit of the United States Mint’s Fiscal Years 2006 and
                                  2005 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2006 and 2005. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2006 and 2005 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 06-03, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP’s Report on Internal Control contained one
            reportable condition related to improvements needed in financial accounting and
            reporting, which was not considered a material weakness. Further, KPMG LLP
            found no instances of reportable noncompliance with laws and regulations,
            exclusive of the Federal Financial Management Improvement Act of 1996 (FFMIA),
            tested. However, KPMG LLP’s tests of FFMIA Section 803 (a) requirements
            disclosed one instance in which the Mint’s financial management systems did not
            substantially comply with the United States Government Standard General Ledger
            at the transaction level.
KPMG LLP also issued a management letter dated December 8, 2006, discussing
other matters involving internal control over financial reporting and its operation
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated December 8, 2006, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits, at
(202) 927-5789.

Attachment
DEPARTMENT OF THE TREASURY 

    UNITED STATES MINT 


         Annual Report 


       September 30, 2006 

                                                                       Table of Contents



                                                                                                                                                               Page

Director’s Letter .................................................................................................................................................. 1 


Message from the Chief Financial Officer .......................................................................................................... 3 


Management’s Discussion and Analysis............................................................................................................. 4 


      Operational Overview................................................................................................................................... 5 


      Financial and Program Analysis................................................................................................................. 11 


      Performance Goals, Objectives and Results ............................................................................................... 19 


      Current and Future Challenges ................................................................................................................... 22 


      Analysis of Systems, Controls and Legal Compliance............................................................................... 24 


Limitations of the Financial Statements............................................................................................................ 26 


Independent Auditors’ Report........................................................................................................................... 27 


Financial Statements ......................................................................................................................................... 29 


Notes to the Financial Statements ..................................................................................................................... 35 


Required Supplementary Information............................................................................................................... 51 


Independent Auditors’ Report on Internal Control ........................................................................................... 53 


      Exhibit I – Reportable Condition................................................................................................................ 55 


      Exhibit II – United States Mint’s Response to the Auditors’ Reports........................................................ 59 


Independent Auditors’ Report on Compliance and Other Matters.................................................................... 60 

1
2
3
          MANAGEMENT’S DISCUSSION and ANALYSIS

                                           OVERVIEW
The United States Mint’s financial statements are prepared in accordance with the Chief Financial Officer’s
(CFO) Act of 1990. The financial statements represent the operations of the entire United States Mint,
comprising the circulating, numismatic, bullion, and protection programs. The Management’s Discussion
and Analysis section provides an operational overview and serves to explain the financial statements as
well as to explain program performance. The United States Mint uses a set of key performance indicators
to manage operations. An analysis of the United States Mint’s success in achieving these performance
goals is included in this section.

                   MISSION OF THE UNITED STATES MINT
The United States Mint applies world-class business practices in manufacturing, selling and protecting the
nation’s coinage and protecting the nation’s assets.


                          ORGANIZATIONAL STRUCTURE




                                                  4

                               OPERATIONAL OVERVIEW 


Since FY 1996, the United States Mint has been operating under the United States Mint’s Public Enterprise
Fund (PEF). As authorized by Public Law 104-52 (31 U.S.C. § 5136), the PEF eliminates the need for
appropriations to the United States Mint. Proceeds from the sale of circulating coins to the Federal Reserve
Banks and to the public, and the sale of numismatic products and bullion coins to customers worldwide are
the only sources of funding for United States Mint operations. Revenues in excess of costs are transferred
to the United States Treasury General Fund.

MANAGEMENT STRATEGIC PRIORITIES
The United States Mint continually seeks to be a model government agency that applies modern business
practices resulting in higher yields, lower costs, proper use of technology, efficient production, timely
delivery of products and exceptional customer service. Management’s strategic priorities in the FY 2006 to
FY 2011 time period include:

    •    Be a model government agency that matches world-class business practices
    •    Value and communicate with the American people
    •    Design, sell, and deliver quality products
    •    Foster a model workplace

Be a model government agency that matches world-class business practices
The United States Mint is committed to continually improving the efficiency of its operations. During FY
2006, the United States Mint focused on six key areas: 1) keeping sales, general and administrative
(SG&A) expenses as low as possible while maintaining the quality that the public and customers expect
from our products; 2) reducing our facilities costs by completing office consolidation efforts; 3)
transferring some of our human resources, procurement, and e-travel functions to a shared services
provider; 4) beginning the process of transferring many transactional functions in accounting and
procurement to a shared service provider; 5) completing the implementation of business process
improvements in the manufacturing facilities and in Sales and Marketing to increase the efficiency of the
production process; and 6) reducing the costs of maintaining a strong and efficient program to protect the
assets of the United States Mint and the nation.

Sales, General and Administrative (SG&A) Expenses: These are the overhead costs associated with
operating the United States Mint. In a production-oriented agency like the United States Mint, emphasis is
placed on minimizing SG&A costs while ensuring compliance with statutory requirements. Minimizing
SG&A costs allows us to keep our circulating and numismatic production costs as low as possible, which,
in turn, also allows us to keep our numismatic product prices low. Ultimately, the result is greater transfers
to the Treasury General Fund. FY 2006 proved to be a challenging year as SG&A expenses rose as a result
of costs associated with implementation efforts to transfer many of the United States Mint’s human
resource, procurement, finance and accounting functions to the Administrative Resource Center, the Bureau
of Public Debt’s Center of Excellence along with the operation of its Enterprise Resource Planning system.
In FY 2006, SG&A costs increased to $177.5 million from $165.5 million in FY 2005, a 7.3 percent
increase. The FY 2006 amount includes $17.2 million associated with the implementation of shared
service agreements.

Facilities Management: The United States Mint essentially completed its Washington, DC headquarters
office consolidation effort in FY 2006. As of the end of FY 2006, the United States Mint had subleased
approximately 185,138 square feet of headquarters office space in Washington, DC. This resulted in
leasing cost savings of approximately $7.9 million in FY 2006 and more than $6.5 million in FY 2005.




                                                      5

Shared Services: Under the Office of Management and Budget’s Line of Business Initiative, federal
agencies are expected to either provide certain shared services as a Center of Excellence, or consider
migrating to a designated Center of Excellence such as the Bureau of Public Debt’s Administrative
Resource Center (ARC). In FY 2006, the United States Mint transferred some of its human resource,
procurement, and e-travel functions to the Bureau of the Public Debt’s Administrative Resource Center
(ARC). This concept is designed to take advantage of economies of scale and other business improvements
resulting from increased standardization and transparencies of a shared services environment. In FY 2007,
the United States Mint will transfer many of its finance and accounting functions to ARC along with the
operation of its Enterprise Resource Planning system.

Improved Business Processes: In FY 2006, the United States Mint completed training for many managers
in Manufacturing on “Lean Manufacturing” processes and in Sales and Marketing on effective project
management skills. This continual process improvement in the Manufacturing and Sales and Marketing
will serve to eliminate unnecessary or redundant practices and should lead to substantial improvements in
plant productivity and reductions in controllable operating costs.

Protection of Assets: In FY 2006, the United States Mint developed a strategic approach and plan to
reduce our Protection costs. We have identified the use of automation to replace certain functions currently
performed by our police officers. We have developed and are installing electronic systems to verify
identity, and scan for weapons and explosives upon entry to each facility. We have also developed an
automated exit scanning procedure to prevent the unauthorized removal of valuables from our facilities.
Presently, this process is conducted by police officers. By automating the entry and exit searches, the
United States Mint will reduce positions, and improve the effectiveness of the scanning process.
Protection costs rose by $5.4 million from FY 2005 levels attributable to expenses associated with
technological upgrades.

Value and communicate with the American people
During FY 2006, the United States Mint continued to improve its communications with its stakeholders, its
customers, and with the American public. This included continuing the innovative and critically acclaimed
United States Mint H.I.P. Pocket Change educational website and conducting a number of open collector
forums around the nation.

United States Mint H.I.P Pocket Change (HPC) Website: During FY 2006, the final set of Westward
Journey Nickel Series™ lesson plans (“Return to Monticello”) were produced and made available for free
download to teachers, parents and students of all ages. We achieved a record number of downloads during
FY 2006 for the Westward Journey Nickel Series and the 50 State Quarters® Program. In addition, visits to
the website reached record numbers, and outreach efforts continued as members of the HPC team staffed a
booth at key education conferences.

Collector Forums: In FY 2006, the United States Mint hosted five collector forums at which collectors
and the members of the general public could see our newest products and pose questions and ideas to
United States Mint officials related to coin programs. The forums were held the evening before each
quarter launch, including West Virginia (10/13/05), Nevada (1/30/06), Nebraska (4/6/06), Colorado
(6/13/06) and North Dakota (8/29/06).

American Customer Satisfaction Index: The United States Mint ranked as the #2 federal agency on the
University of Michigan’s American Customer Satisfaction Index (ACSI) for calendar year 2005. The
United States Mint’s score of 88 was the second highest score earned by a federal agency in FY 2006.

Also, based on information we gathered and analyzed, using the ACSI methodology, the United States
Mint’s scores of 80 in the e-commerce/transactions category and 76 in the portals/main sites category
during the third quarter of FY 2006 outpaced the average government score of 73.7 and the overall private
sector e-commerce score of 79.6.




                                                   6

Coin Users Group Forum: In accordance with Public Law 109-145, the United States is honoring our
nation’s presidents by issuing $1 circulating coins featuring their images, in order of their service,
beginning in 2007. The United States Mint will issue four Presidential $1 Coins per year, and each shall
have a reverse design featuring a striking rendition of the Statue of Liberty. In addition to authorizing these
new coins, the law requires the Board of Governors of the Federal Reserve System and the Secretary of the
Treasury to take steps to ensure that an adequate supply of $1 coins is available for commerce and
collectors at such places and in such quantities as are appropriate by consulting with a coin users group to
secure stakeholder ideas for the efficient distribution and circulation of $1 coins as well as all other
circulating coins. To this end, the first coin users group forum, hosted jointly by the United States Mint
and the Federal Reserve Board, was held on June 8, 2006, at the United States Mint’s headquarters in
Washington, D.C., location.

Design, sell, and deliver quality products
The United States Mint continually seeks to provide quality products and services that are responsive to our
customer’s needs and desires and, at the same time, provide excellent customer service that meets best in
business standards. FY 2006 was no exception.

FY 2006 New Products and Programs

American Buffalo 24-karat Gold Bullion and Proof Coins:
The United States Mint introduced its new line of 24-karat gold coins. Production of these highly
anticipated coins is authorized by Title II of Public Law 109-145, also known as the Presidential $1 Coin
Act of 2005.

The new American Buffalo Gold coin’s obverse and reverse feature images originally executed by noted
sculptor James Earle Fraser. The Buffalo, or Indian Head, nickel debuted in 1913 and, during its
production through 1938, became one of our nation’s best-loved circulating coins. The specific image used
for this new 24-karat gold bullion coin is known to collectors as Fraser’s 1913 Type I design.

American Buffalo Gold Bullion Coins are the first .9999 fine 24-karat gold coins ever struck by the United
States Mint and are offered for sale through a network of Authorized Purchasers. These $50 denomination
gold coins are available to members of the public seeking a simple and tangible means to own and invest in
24-karat gold in the form of legal tender coins whose content and purity are guaranteed by the United
States Government. American Buffalo Gold Bullion Coins are available at many coin and precious metals
dealers as well as many brokerage houses and participating banks. Pricing for precious metal investment
grade or “bullion” coins typically depends on the market price of the metal.

The United States Mint also produces proof versions of these coins for collectors. These coins are sold
directly to the public through United States Mint sales channels. At the end of FY 2006, the United States
Mint had sold 266,600 ounces of bullion coins to Authorized Purchasers and 208,700 units of proof coins
directly to the public.

American Eagle Uncirculated Coins

In FY 2006, the United States Mint launched a new collector product category consisting of American
Eagle gold and silver uncirculated coins featuring the “W” (United States Mint at West Point) mintmark.
This year the coins were released only in one-ounce versions and were sold as part of the American Eagle
20th Anniversary Sets.

American Eagle 20th Anniversary Coin Sets: To commemorate the 20th anniversary of the launch of the
American Eagle gold and silver programs, the United States Mint offered three American Eagle coin sets.

American Eagle 20th Anniversary Silver Coin Set: This coin set features uncirculated, proof, and reverse
proof versions of the one ounce American Eagle Silver $1 denomination coins.



                                                    7

American Eagle 20th Anniversary Gold & Silver Set: This coin set features uncirculated versions of the one
ounce American Eagle Silver $1 denomination coin and the one ounce American Eagle Gold $50 Coin.

American Eagle 20th Anniversary Gold Coin Set: This coin set features uncirculated, proof, and reverse
proof versions of the one ounce American Eagle Gold $50 denomination coins.

The 50 State Quarters® Program:
(a 10-year celebration of our national heritage)

A significant portion of United States Mint operations is dedicated to the 50 State Quarters Program, which
was launched in 1999 to commemorate each of the 50 states over a ten-year period. Five new
commemorative quarter-dollar coins are produced each year. Each quarter-dollar coin reverse celebrates
one of the 50 states with a design honoring that state’s unique history, traditions and symbols. The quarter-
dollars are released in the order in which the states ratified the United States Constitution or were admitted
into the Union. In FY 2006, the United States Mint issued quarter-dollars commemorating West Virginia,
Nevada, Nebraska, Colorado, and North Dakota.

FY 2006 50 State Quarters Releases

West Virginia:
The first quarter-dollar coin released in 2006 (October 2005) commemorated the state of West Virginia. On
June 20, 1863, the "Mountain State" became the 35th state to be admitted into the Union, making this the
35th coin to be issued in the United States Mint’s 50 State Quarters Program. This coin captures the scenic
beauty of the State with its depiction of the New River and the New River Gorge Bridge. The coin bears the
inscription "New River Gorge."

Nevada:
The second quarter-dollar coin released in 2006 commemorated Nevada, and is the 36th coin in the United
States Mint's 50 State Quarters Program. Nevada, nicknamed "The Silver State," was admitted into the
Union on October 31, 1864, becoming our nation's 36th state. Nevada's quarter depicts a trio of wild
mustangs, the sun rising behind snow-capped mountains, bordered by sagebrush and a banner that reads
"The Silver State." The coin also bears the inscriptions "Nevada" and "1864."

Nebraska:
The third quarter-dollar coin released in 2006 commemorated Nebraska, and is the 37th coin in the United
States Mint's 50 State Quarters Program. Nebraska, nicknamed the "Cornhusker State," was admitted into
the Union on March 1, 1867, becoming our nation's 37th state. Nebraska's quarter depicts an ox-drawn
covered wagon carrying pioneers in the foreground and Chimney Rock, the natural wonder that rises from
the valley of North Platte River, measuring 445 feet from base to tip. The sun is in full view behind the
wagon. The coin also bears the inscriptions "Nebraska," "Chimney Rock" and "1867."

Colorado:
The fourth quarter-dollar coin released in 2006 commemorated Colorado, and is the 38th coin in the United
States Mint's 50 State Quarters Program. The Colorado quarter depicts a sweeping view of the state's
rugged Rocky Mountains with evergreen trees and a banner carrying the inscription "Colorful Colorado."
The coin also bears the inscriptions "Colorado" and "1876."

North Dakota:
The fifth and final quarter-dollar coin released in 2006 commemorated North Dakota, and is the 39th coin
in the United States Mint's 50 State Quarters Program. On November 2, 1889, North Dakota was admitted
into the Union, becoming our nation's 39th state. The North Dakota quarter depicts a pair of grazing
American bison in the foreground with a sunset view of the rugged buttes and canyons that help define the
State's Badlands region in the background. The coin's design also bears the inscriptions "North Dakota" and
"1889."




                                                    8

2006 “Return To Monticello” 5-Cent Coin:
In 2006, the United States Mint released the final issue in the extremely popular Westward Journey Nickel
Series™: “Return to Monticello.” The reverse of the 2006 5-cent coin features the classic, familiar
rendition of Monticello, President Thomas Jefferson's Virginia home, originally executed by artist Felix
Schlag and first chosen to adorn the coin's reverse in 1938. The obverse of the 2006 5-cent coin depicts a
portrait of Thomas Jefferson completed during 1800.

FY 2006 Commemorative Coins

2006 Benjamin Franklin Commemorative Coin Program:
The United States honored the tercentenary of the birth of Benjamin Franklin, one of this nation’s original
scientists, thinkers and founding fathers, with two commemorative silver dollars designed and produced by
the United States Mint and minted at the United States Mint at Philadelphia facility. The Benjamin
Franklin Commemorative Coin Program included two silver dollars – "Scientist" and "Founding Father" –
in both proof and uncirculated conditions.

“The Scientist” recreates Benjamin Franklin’s legendary kite experiment. This coin’s reverse features a
recreation of Franklin’s “Join, or Die” political cartoon, which was published in the Pennsylvania Gazette
on May 9, 1754. “The Founding Father” features a familiar image of Franklin in his later years that is based
on a bust by Jean-Antoine Houdon. This coin’s reverse honors Franklin’s contributions to the development
of the United States coinage and currency; it shows a replica of the 1776 Continental Currency dollar -- a
design that is attributed to Franklin.

Authorized by Public Law 108-464, each coin was limited to a maximum mintage of 250,000. All
associated products for this program sold out during FY 2006. Surcharges from the program are authorized
to be paid to the Franklin Institute for purposes of the Benjamin Franklin Tercentenary Commission, a non­
profit alliance established by Congress to commemorate the tercentenary and to educate the public about
Franklin’s legacy.

2006 San Francisco Old Mint Commemorative Coin Program:
The second United States commemorative coin program of 2006 pays tribute to the San Francisco Old
Mint, celebrating the instrumental role it played in the recovery and rebuilding of a great American city, in
the 100th anniversary of the San Francisco earthquake.

Public Law 109-230 calls for the production and release of two commemorative coins (a $5 denomination
gold coin and a $1 denomination silver coin) to honor the history and legacy of the building that became
known as the "Granite Lady." Both coins will be available in proof and uncirculated qualities, all minted at
the United States Mint at San Francisco facility. The $5 coin will be limited to a mintage of 100,000, and
the $1 coin will be limited to a mintage of 500,000.

The obverse design of the $5 gold coin is a rendition of the Old Mint modeled on the original 1869
construction drawing by A.B. Mullett. The reverse design is a replica of the 1906 Half-Eagle Coronet
Liberty eagle reverse, designed by Christian Gobrecht. The obverse design of the silver dollar is a
rendition of the San Francisco Old Mint, originally prepared for the San Francisco Mint Medal by Sherl J.
Winter. The reverse design is a replica of the 1904 Morgan Silver Dollar eagle reverse, designed by George
T. Morgan.

Surcharges collected through the sale of these commemorative coins are authorized to be paid to the San
Francisco Museum and Historical Society for the purposes of rehabilitating the Historic Old Mint in San
Francisco as a city museum and an American coin and gold rush museum. Although production of these
coins began in FY 2006, shipping is expected to commence in December 2006. Revenue for this program
will not accrue until FY 2007.




                                                    9

Fostering a Model Workplace
EEO/Diversity: We have continued to focus on communications and employee engagement, building
trust, and promoting an environment in which people are treated fairly and respectfully. These efforts have
resulted in a significant decrease in the number of formal Equal Employment Opportunity complaints. In
FY 2006, there were 20 formal complaints, down from 22 in FY 2005 and 34 in FY 2004.

Workforce Planning Initiative: In 2006, the United States Mint began its workforce planning to better
position itself to meet future challenges. As part of this effort, the United States Mint developed
“roadmaps” to successfully position the organization for the future. These roadmaps will lead the way to
an organization that can meet the circulating coinage needs more efficiently while offering new products to
grow numismatic operations.

Safety:
The safety and well-being of our employees is of the utmost importance at the United States Mint. Over
the past few years, the United States Mint has devoted a great amount of attention and work to upgrading
working conditions in its manufacturing facilities and maintaining an extremely safe working environment
at its headquarters location. Last year, our Philadelphia facility was designated by OSHA as a model for
safety improvement. This attention to safety continued during FY 2006 as we reduced lost time accident
rates (LTAs) to 0.79, down from 0.94 in FY 2005.




                                                  10 

                     FINANCIAL AND PROGRAM ANALYSIS

OPERATING RESULTS
Beginning with the FY 2005 financial statements, the United States Mint no longer includes the cost of
protecting the nation’s gold and silver reserves as an offset against “Other Financing Sources”
(seigniorage). Therefore, the Protection Program, which represents the cost of protecting the nation’s gold
and silver reserves, reflects a loss on the Statement of Net Cost, and the Circulating Program reflects a zero
net cost because revenue equals total costs. The cost of securing United States Mint facilities, staff, and
assets is included in the cost of production and is a proper charge to the Circulating Program. This change
was made as part of the conversion to a government United States Generally Accepted Accounting
Principles (USGAAP) presentation of the FY 2005 financial statements.


Total Earned Revenue and Other Financing                                           Total Earned Revenue and
Sources (Seigniorage)                                                               Other Financing Sources

                                                                                   2,500    2,323.5
In FY 2006, the United States Mint’s earned revenue                                                        1,771.0
                                                                                   2,000     682.4




                                                                    ($ Millions)
increased to $1641.1 million plus other financing sources
(seigniorage) of $682.4 million totaling $2,323.5 million.                         1,500                    722.7
This compares with FY 2005 amounts of $1,048.3 million                             1,000    1,641.1
for earned revenue plus $722.7 million for other financing                          500                     1,048.3
sources, totaling $1,771.0 million.
                                                                                     -
                                                                                            FY 2006        FY 2005
                                                                   Earned Revenue             Other Financing Sources




Circulating Coinage Shipped To the Federal Reserve Banks
The United States Mint produces the circulating coins used to conduct commercial transactions across the
nation. Coins are shipped to the Federal Reserve Bank as they are needed to replenish inventory and fulfill
commercial demand. The FRB pays the United States Mint face value for the coins when they are shipped.

Circulating Earned Revenue and Other Financing Sources
Earned revenue from circulating coinage equals the costs
                                                                                   Circulating Earned Revenue
(metal, manufacturing and transportation) incurred to make
                                                                                   and Other Financing Sources
and distribute the coin, while “other financing sources” (also
known as seigniorage) represents the difference between the                        1,500    1,271.9         1,144.8
cost to make the coin and the face value received from the
                                                                    ($ Millions)




Federal Reserve Bank. Circulating earned revenue from                              1,000     668.5
                                                                                                            699.4
coins shipped to the Federal Reserve Bank of $603.4 million
                                                                                    500
plus the circulating other financing sources of $668.5                                       603.4
                                                                                                            445.4
million increased to $1,271.9 million in FY 2006. This                               -
compares with $445.4 million in earned revenue plus $699.4                                  FY 2006        FY 2005
million from other financing sources totaling $1,144.8
million in FY 2005.                                                  Other Financing Sources
                                                                     Earned Revenue (Gross Circulating Cost)




                                                   11
CIRCULATING EARNED REVENUE & OTHER FINANCING SOURCES (OFS) (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2006

                                                                                                  Mutilated &
                                    One-cent   5-cent        Dime    Quarter      Half   Dollar         Other      Total
Revenue & OFS                          $85.0    $72.6       $301.9    $751.1      $1.0   $60.3           $0.0   $1,271.9
Cost of Goods Sold                     103.3     87.1         87.6     203.5       0.4     2.4            0.0      484.3
Selling, General & Administrative        0.0      0.1         24.5      63.3       0.0     6.7            0.0       94.6
Other Costs and Expenses                 0.0      0.0          2.3       5.9       0.0     0.6           15.7       24.5
Other Financing Sources               -$18.3   -$14.6       $187.5    $478.4      $0.6   $50.6         -$15.7     $668.5


CIRCULATING EARNED REVENUE & OTHER FINANCING SOURCES (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2005

                                                                                                  Mutilated &
                                    One-cent   5-cent        Dime    Quarter      Half   Dollar         Other      Total
Revenue & OFS                          $72.2    $70.9       $266.9    $663.9      $0.8   $70.1           $0.0   $1,144.8
Cost of Goods Sold                      69.9     68.3         59.3     133.9       0.2     4.6            0.0      336.2
Selling, General & Administrative        0.3      0.2         22.0      56.4       0.1     6.9            0.0       85.9
Other Costs and Expenses                 0.0      0.0          2.5       6.4       0.0     0.8           13.6       23.3
Other Financing Sources                 $2.0     $2.4       $183.1    $467.2      $0.5   $57.8         -$13.6     $699.4



Circulating Coin Costs

FY 2006 was a particularly challenging year given significant increases in the prices of nickel, zinc and
copper—the three primary components of our circulating coinage. The conversion cost per 1000 coin
equivalents increased slightly to $7.55, a two percent increase over the FY 2005 conversion cost of $7.42.
During the fourth quarter of FY 2006, increases in the prices of zinc and nickel raised the costs of
production for the one-cent and 5-cent coins above their face values.

     UNIT COST OF PRODUCING AND DISTRIBUTING COINS

     FOR THE YEAR ENDED SEPTEMBER 30, 2006


                                          One-cent       5-cent        Dime    Quarter       Half     Dollar
       Cost of Goods Sold                  $0.0119      $0.0592      $0.0294   $0.0681   $0.1729     $0.0495
       General & Administrative             0.0000       0.0001       0.0081    0.0211    0.0000      0.1092
       Distribution to FRB                  0.0002       0.0004       0.0003    0.0015    0.0020      0.0008
       Total Expenses                      $0.0121      $0.0597      $0.0378   $0.0907   $0.1749     $0.1595


     UNIT COST OF PRODUCING AND DISTRIBUTING COINS
     FOR THE YEAR ENDED SEPTEMBER 30, 2005

                                          One-cent       5-cent        Dime    Quarter       Half     Dollar
       Cost of Goods Sold                  $0.0095      $0.0478      $0.0219   $0.0491   $0.1091     $0.0655
       General & Administrative             0.0000       0.0002       0.0083    0.0212    0.0429      0.0992
       Distribution to FRB                  0.0002       0.0004       0.0003    0.0014    0.0019      0.0007
       Total Expenses                      $0.0097      $0.0484      $0.0305   $0.0717   $0.1539     $0.1654




                                                     12 

Numismatic Products Sold To the Public
The United States Mint also produces and sells a variety of numismatic products directly to the public, and
precious metal (gold, silver and platinum) investment grade bullion coins to pre-qualified Authorized
Purchasers for resale to the public. Total numismatic revenue plus other financing sources, and numismatic
revenue plus other financing sources as a proportion of total United States Mint revenue, have been
growing over the past three fiscal years. In FY 2006, numismatic revenue plus other financing sources
represented 45 percent of total United States Mint revenue, up from 35 percent in FY 2005. This trend is
expected to continue into the foreseeable future as demand for circulating coinage stabilizes or diminishes.

American Eagle Bullion Coins:
American Eagle bullion coins are typically purchased by
                                                                   American Eagle Bullion Cost
investors seeking a simple, tangible means to own and invest
in precious metals. These coins are made in gold (22K),             and Net Program Revenue
silver and platinum. American Eagle silver bullion sales         400        368.9
increased to 11.2 million fine troy ounces (FTOs) and                               9.2     270.7




                                                                ($ Millions)
revenue increased to $130.5 million in FY 2006 compared          300                               5.5
with 8.5 million FTOs sold and $70.7 million in revenue in       200        359.7
FY 2005. While American Eagle gold bullion sales                                            265.2
                                                                 100
decreased to 395.0 thousand FTOs in FY 2006, revenue
increased to $222.9 million because of the higher prices of      -
precious metals. This compares with 411.5 thousand FTOs                    FY 2006         FY 2005
sold and $185.0 million in revenue in FY 2005. American                        Net Program Revenue
Eagle platinum bullion sales decreased to 14.5 thousand                        Gross Numismatic Cost
ounces, while revenue increased to $15.5 million in FY
2006. This compares with 16.5 thousand ounces sold and $15.0 million in revenue in FY 2005. Total
American Eagle bullion revenues increased to $368.9 million compared with $270.7 million in FY 2005.

American Eagle Proof Programs with Uncirculated Coins and 20th Anniversary Sets:
American Eagle Proof coins are made in gold (22K), silver
                                                                          American Eagle Proof,
and platinum. FY 2006 proved to be a very good year for
sales of American Eagle Gold Proof products. American                Uncirculated,  and Anniversary
Eagle Gold Proof coin sales increased to 166.6 thousand             Cost  and Net Program   Revenue
units and revenue increased to $55.2 million in FY 2006.                        117.5
                                                                                17.5
                                                                       ($ Millions)




This compares with 140.7 thousand units sold and $43.9               100                        93.2
                                                                                                16.8
million in revenue in FY 2005. American Eagle Silver
Proof sales decreased to 818.7 thousand units sold and $22.6           50       100.0
                                                                                                76.4
million in revenue in FY 2006. This compares with 855.8
thousand units sold and $25.2 million in revenue in FY               -
2005. American Eagle Platinum Proof sales fell to 32.8                        FY 2006         FY 2005
thousand units and $22.2 million in revenue in FY 2006.                          Net Program Revenue
This compares with 36.6 thousand units sold and $24.1                            Gross Numismatic Cost
million in revenue in FY 2005. American Eagle Proof net
program revenues decreased to $16.4 million in FY 2006 from $16.8 million in FY 2005. The American
Eagle 20th Anniversary Set coin sales were 20.4 thousand gold coins and 8.9 thousand silver coins. The
20th Anniversary Sets net program revenues were $1.1 million for a program total of $17.5 million.
Although the American Eagle Uncirculated coins were made available for sale in late FY 2006, shipping
will not commence, and revenue will not be realized, until FY 2007.




                                                  13 

American Buffalo Gold Bullion Coins:
FY 2006 marked the debut of the American Buffalo Gold                               American Buffalo Gold Bullion
Bullion Coin. This is the first pure gold (24-karat) coin                          Cost and Net Program Revenue
produced by the United States Mint. In accordance with                              180
Title II of Public Law 109-145 (Presidential $1 Coin Act of                                           167.7
                                                                                    170




                                                                    ($ Millions)
2005), as codified at 31 U.S.C. § 5112(a)(11) & (q), the coin                                                     3.0
is produced only in a one-ounce weight with a $50                                   160
denomination. In FY 2007, the United States Mint plans to                                             164.7
introduce one-half ounce, one-quarter ounce and one-tenth                           150
ounce 24-karat gold coins under the Secretary’s authority at                        140
31 U.S.C. § 5112(i)(4). The launch of the American Buffalo                                           FY 2006
Gold Bullion Coin resulted in sales of 266.5 thousand                                     Net Program Revenue
ounces in FY 2006, generating $167.7 million in net                                       Gross Numismatic Cost
program revenue. Net program revenues for FY 2006 were
$3.0 million, and the net program revenue ratio was 1.8 percent.

                                                                                    American Buffalo Gold Proof
American Buffalo Gold Proof Coins:                                                 Cost and Net Program Revenue
FY 2006 also marked the debut of the American Buffalo 24-                           200
                                                                                                      166.7
karat Gold Proof Coin. This extremely popular collectible
                                                                                                                  15.9
                                                                                    150



                                                                    ($ Millions)
product was sold in one-ounce units and generated sales of
208.7 thousand units and $166.7 million in earned revenue                           100
in FY 2006. Notably, almost 53,000 units representing                                                 150.8
approximately $42 million in earned revenue were sold in                             50
the first 24 hours after launch. Net program revenues for FY
2006 were $15.9 million.
                                                                                                     FY 2006
                                                                                           Net Program Revenue
                                                                                           Gross Numismatic Cost

Commemorative Coins:
Commemorative revenue (less surcharges paid to recipient organizations) increased to $24.9 million in FY
2006 from $20.8 million in FY 2005. Congress authorized the issuance of the Chief Justice John Marshall
Silver Dollar and the 2005 Marine Corps 230th Anniversary Silver Dollar commemorative coins, which
were released in March 2005 and July 2005, respectively. Sales continued into FY 2006, through
December 31, 2005. The Chief Justice John Marshall
Commemorative Coin Program generated $2.3 million in                 Commemorative Coins Cost
revenue and $.6 million in surcharges for the designated              and Net Program Revenue
beneficiary organization in FY 2006. The Marine Corps                30
230th Anniversary Commemorative Coin Program generated                         24.9
                                                                     25                       20.8
$10.1 million in revenue and $3.8 million in surcharges for                     4.8
                                                                    ($ Millions)




                                                                     20                        2.8
the designated recipient organization in FY 2006.
                                                                                     15
                                                                          10                  20.1  18.0
For 2006, Congress authorized the Benjamin Franklin
Commemorative Coin Program. All product options sold                       5
out for this program in FY 2006. The Benjamin Franklin                   -
Commemorative Coin Program generated $12.5 million in                             FY 2006         FY 2005
                                                                              Net Program Revenue
revenue and $4.5 million in surcharges for the designated
recipient organization. Congress also authorized the                          Gross Numismatic Cost

issuance of the 2006 San Francisco Old Mint Commemorative Coin Program. Because this program was
signed into law late in the fiscal year, coins will not be shipped and revenue will not accrue until FY 2007.
Net program revenue for FY 2006 was $4.8 million, and surcharges collected for the designated recipients
totaled $8.9 million. Surcharges paid to recipient organizations totaled $11.2 million in FY 2006.




                                                   14 

Recurring Programs:                                                                 Recurring Coin Products Cost
Recurring programs include Proof Sets, Silver Proof Sets,                            and Net Program Revenue
Uncirculated Sets, 50 State Quarters Proof Sets, 50 State
Quarters Silver Proof Sets, and other miscellaneous                                  250
                                                                                                                      203.5
products. Revenue from recurring programs decreased to                               200            181.4




                                                                     ($ Millions)
                                                                                                                       53.6
$181.4 million in FY 2006 from $203.5 million in FY 2005.                            150
                                                                                                    35.1
Net program revenues decreased to $35.1million in FY 2006
                                                                                     100
compared with $53.6 million in 2005. The recurring net                                              146.3             149.9
revenue ratio decreased to 19.3 percent in FY 2006 from                                     50
26.3 percent in FY 2005.                                                                -
                                                                                                  FY 2006           FY 2005
                                                                                                    Net Program Revenue
                                                                                                    Gross Numismatic Cost




Numismatic Sales of Circulating Coinage
With the introduction of the 50 State Quarters Program, the                   Numismatic Sales of Circulating
Golden Dollar and the 5-cent coin redesigns, there has been                               Coins
an increase in collector demand for circulating quality coins
that have not yet been circulated. These coins are typically                         50
                                                                                                                      37.9
sold by the United States Mint in bags and rolls. Sales in                           40


                                                                    ($ Millions)
this category represent the face value of the coins sold. All                        30            24.4
                                                                                                                      23.3
additional revenue above the face value, or above the                                20            13.9
production cost, whichever is higher, and any additional
                                                                                     10                               14.6
expenses incurred in selling these products, are included in                                       10.5
the Numismatic Recurring Programs in the previous section.                          -
                                                                                                  FY 2006           FY 2005
Total numismatic earned revenue from the sale of circulating        Earned Revenue Other Financing Sources
coinage plus other financing sources decreased to $24.4
million in FY 2006 as compared with $37.9 million in FY
2005. Higher FY 2005 sales reflected the two different 5-cent coin designs of the popular Westward
Journey Nickel Series issued that year. As in the case of circulating coins sold to the FRB, the portion of
the other financing sources from the sale of numismatic circulating coinage transferred to the Treasury
General Fund represents off-budget receipts.

Numismatic Cost, Earned Revenue, and Net Program Revenue
Earned revenue for numismatic sales to the public (net of
                                                                                      Numismatic Cost, Earned
surcharges paid to recipient organizations) of $1,027.1
million, plus earned revenue for numismatic sales of                                 Revenue, and Net Program
circulating coinage of $10.5 million, increased to a total of                               Revenue
                                                                                                   1,037.6
$1,037.6 million in FY 2006. Increases in numismatic                                 1,000          85.5
                                                                                                             10.5
                                                                    ($ Millions)




earned revenue were largely a result of the release of new
                                                                                            800
numismatic products—particularly the American Buffalo
                                                                                                    941.6             602.8
24-karat Gold Proof coin. This compares with earned                                         600                        78.7
revenue of $588.2 million for numismatic sales to the public,                                                         509.5
                                                                                                                            14.6
plus earned revenue of $14.6 million from numismatic sales                                  400
of circulating coinage that totaled $602.8 million in FY                                           FY 2006          FY 2005
2005. The total net program revenue on the sale of                 Gross Numismatic Cost                     Earned Revenue
numismatic products increased to $85.5 million in FY 2006          Net Program Revenue
compared with $78.7 million in FY 2005.




                                                   15
The following charts show total numismatic revenue and net program revenue for FY 2006 compared with
FY 2005 results, and show costs and net program revenue by major product lines.

NUMISMATIC NET PROGRAM REVENUE (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2006

                                                         American
                                                        Eagle Proof,    American
                                          American      Uncirculated     Buffalo    American
                                            Eagle         & 20th          Gold       Buffalo
                                           Bullion      Anniversary      Bullion    Gold Proof Commemoratives    Recurring      Total
Revenue (less surcharges & commissions)       $368.9          $117.5       $167.7       $166.7          $24.9       $181.4   $1,027.1
Cost of Goods Sold                             358.7             83.8        164.2        136.9           14.6       100.4    $858.6
Selling, General & Administrative                 0.9            15.7           0.5        13.5            5.4        44.8      $80.8
Other Cost                                        0.1             0.5           0.0         0.4            0.1         1.1       $2.2
Net Program Revenue                              $9.2          $17.5           $3.0       $15.9           $4.8       $35.1      $85.5

Net Program Revenue Ratio                       2.5%           14.9%         1.8%       9.5%            19.3%       19.3%       8.3%


NUMISMATIC NET PROGRAM REVENUE (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2005

                                                                        American
                                          American                       Buffalo    American
                                            Eagle      American           Gold       Buffalo
                                           Bullion    Eagle Proof        Bullion    Gold Proof Commemoratives    Recurring     Total
Revenue (less surcharges & commissions)       $270.7         $93.2             $0.0        $0.0         $20.8       $203.5    $588.2
Cost of Goods Sold                             264.3          62.4              0.0         0.0           13.1        92.8     432.6
Selling, General & Administrative                 0.8         13.8              0.0         0.0            4.9        56.3      75.8
Other Cost                                        0.1          0.2              0.0         0.0            0.0         0.8       1.1
Net Program Revenue                              $5.5        $16.8             $0.0        $0.0           $2.8       $53.6     $78.7

Net Program Revenue Ratio                       2.0%           18.0%      N/A        N/A                13.5%       26.3%      13.4%




PROTECTION OPERATIONS

The United States Mint Office of Protection maintains a professional police force with the tools and
resources needed to respond to the changing threats of today’s environment. The Office of Protection is
committed to recruiting and retaining the highest caliber of law enforcement personnel and to maintaining a
competitive compensation structure.

The Office of Protection secures approximately $148.8 billion in market value of the nation’s gold and
silver reserves and protects the United States Mint’s assets while safeguarding our employees against
potential threats at our facilities across the country. In FY 2006, the Protection Program had a net cost of
$42.8 million, an increase from a net cost of $37.4 million in FY 2005. This increase in net cost resulted
from expenses related to the completion of security upgrades.


CAPITAL INVESTMENTS

Each year, the United States Mint commits funds for capital projects to maintain, upgrade or acquire
equipment, physical structures, physical security systems, and information technology systems. Funds
obligated for capital projects totaled approximately $20.2 million in FY 2006. This included approximately
$14.4 million for manufacturing projects, $3.6 million for security improvement projects, and $2.2 million
for information technology projects. The United States Mint’s capital projects are focused on improving
processes, developing new coin design and production capabilities, and expanding information handling.
These investments are planned to reduce costs, shorten the overall time from product concept to production,
and achieve greater flexibility to respond to market demands.




                                                           16 

TOTAL UNITED STATES MINT NET PROGRAM REVENUES AND OTHER
FINANCING SOURCES

                   Consolidated Net Program Revenue and
                          Other Financing Sources                                                                   Net Revenue Ratio

                   3,000                                                              2,583.5
                   2,500                                                                                          60%
                                                                                                                  50%                               43.1%
    ($ Millions)




                   2,000                                                                                          40%             31.2%
                                                                        1,466.0
                   1,500                                                                                          30%
                                                           929.3                                                  20%
                   1,000   725.1   764.0
                                           650.2   541.1                                                          10%
                    500                                                                                            0%
                     -                                                                                                            2006              2005
                           2006 2005 2004 2003 2002 2001 2000


The net program revenues plus other financing sources decreased to $725.1 million in FY 2006 from
$764.0 million in FY 2005. The total net revenue ratio1 decreased to 31.2% compared to 43.1% in the
prior year because of a significant rise in the prices of the metals that are used in the fabrication of coins.

TRANSFERS TO THE TREASURY GENERAL FUND

The Public Enterprise Fund (PEF) legislation permits the United States Mint to operate in a business-like
manner, allowing the United States Mint flexibility to adjust spending to adapt to ever-changing economic
and business conditions. As required by Public Law 104-52, the United States Mint transfers all profits to
the Treasury General Fund, retaining only the amount required by the PEF to support United States Mint
operations and programs.

In FY 2006, the United States Mint                                                      Transfers to the Treasury General Fund
transferred $750 million to the Treasury
General Fund. This total included $666                                        2,500                                               2,281
                                                               ($ Millions)




million in net operating results from the
                                                                              2,000
sale of circulating coins either to the
Federal Reserve Bank (FRB) or through                                                                                     1,383
                                                                              1,500
numismatic channels (off-budget), and $84
                                                                                                                  1,030                   1,018
million from profits on numismatic
                                                                              1,000             775
collectible and bullion sales (on-budget).                                              750           665   600                                   562         587
In comparison, $775 million ($730 million                                      500
                                                                                                                                                        467

off-budget and $45 million on-budget) was
transferred to the Treasury General Fund                                        -
in FY 2005.                                                                             2006 2005 2004 2003 2002 2001 2000 1999 1998 1997 1996


The amounts transferred to Treasury are directly related to the sales of United States Mint products. The
total face value of circulating coins shipped to the Federal Reserve or sold through numismatic channels
increased from the previous year. In a stable cost environment, an increase in circulating shipments would
normally result in a larger source of funds available for transfer. However, rising metal prices during FY
2006 increased the overall costs of circulating coins, resulting in reduced funds available for transfer off­

1
  Net Revenue Ratio compares net program revenue to total program revenue. It indicates how much net
revenue a company makes for every $1 it generates in total revenue. The United States Mint’s net revenue
ratio refers to net program revenue plus other financing sources as a percentage of total program revenue
plus other financing sources.


                                                                              17 

budget in comparison to FY 2005. The $84 million on-budget transfer occurred in the first quarter of FY
2006 and reflects the numismatic net income for FY 2005. This lag in the transfer of on-budget funds is
necessary, pending completion of the financial statements audit. Accordingly, the on-budget transfer in the
first quarter in FY 2007 will reflect the audited profits from the sale of numismatic products in FY 2006.

Supplemental Information per Public Law 107-201
Public Law 107-201 (July 23, 2002) authorized the United States Mint to purchase silver on the open
market to mint coins when the silver in the Strategic and Critical Materials Stockpile was depleted. The
law requires an annual reporting of the amount of silver purchased on the open market by fiscal year. The
following are purchases for FY 2006 and FY 2005:

                           Quantity (FTO)                               Market Value
FY 2006                    17,036,321.0010                             $ 178,226,186.41
FY 2005                    15,462,284.6495                             $ 110,164,958.01




                                                  18 

         PERFORMANCE GOALS, OBJECTIVES AND RESULTS
One of the most effective means of determining how well an organization is performing is through the use
of performance measures. As mandated by the Government Performance & Results Act (GPRA) of 1993,
agencies are to identify critical activities, devise pertinent performance measures and report on these
activities to the President and Congress.

The United States Mint’s strategic plan focuses on improving efficiency, ensuring integrity, valuing our
employees, and operating at the utmost performance level expected of a federal agency. To assess our
efforts, the United States Mint identified key performance measures that cut across the entire organization.
Tied to these performance measures are high-level targets coupled with initiatives enabling us to reach our
goals. These measures are presented as bureau-wide strategic performance measures, which establish a
single, critical set of measures we use to monitor and to manage our operations effectively. The following
table identifies our performance measures, targets and year-end achievements.

BUDGET PERFORMANCE MEASURES

The following table shows the targets and results for performance measures presented as part of the FY
2007 Performance Budget.

                                          FY 2006 Result         FY 2006 Target        FY 2005 Result
Conversion cost per 1,000 coin
                                                 $7.55                  $6.62                  $7.42
equivalents
Cycle-time                                      72 days                67 days                69 days
Order fulfillment                                95%                     95%                   94%
Protection cost per square foot                 $32.49                  $32.00                $32.43
Total losses                                      $0                   $15,000                $1,135

Analysis of Budget Performance Measures

Conversion cost per 1,000 coin equivalents
The United States Mint’s costs vary by product, and the
product mix has been variable over time. This makes it           Conversion cost per 1,000 coin
difficult to compare operating results from year to year.                 equivalents
                                                                                               $9.96
The coin equivalent calculation converts the production      $10
output to a common denominator based on the                    $9
circulating quarter. Production costs, excluding metal                               $7.93
                                                               $8   $7.55   $7.42
and fabrication, are then divided by this standardized
                                                               $7
production level, thus resulting in “conversion costs per
                                                               $6
1000 coin equivalents.” This allows comparison of
                                                               $5
performance over time by negating the effects of changes
                                                                   FY 2006 FY 2005 FY 2004 FY 2003
in the product mix. The conversion cost per 1,000 coin
equivalents during FY 2006 is $7.55, an increase of two
percent from the FY 2005 result of $7.42. The performance measure did not meet the FY 2006 target of
$6.62. This target (stretch goal) was an 11 percent decrease from the FY 2005 actual results and was set
based on forecasted volume and cost estimates.

Coin equivalent production increased to 21.1 billion in FY 2006, compared with 19.9 billion in FY 2005,
an increase of six percent. The associated conversion cost increased to $159 million from $147 million in
FY 2005, an increase of eight percent. The increase in conversion cost between FY 2006 and FY 2005 is
the result of rising energy costs, replenishment of shipping and packaging supplies, overtime to support
new numismatic products, and a 21 percent increase in depreciation expense. In FY 2006, the United
States Mint completed training for many manufacturing managers on lean manufacturing processes and for


                                                   19 

sales and marketing staff on project management techniques. This training will serve to eliminate
unnecessary or redundant practices and should lead to improvements in plant productivity and reductions in
controllable operating costs.

Cycle-time
The cycle-time measure assesses the time it takes
material to flow through the United States Mint's                              Cycle-time
processes from raw material to order fulfillment. The                                      85
United States Mint’s objective is to minimize the amount           80      72      69              73
of time required to process raw materials into finished            60




                                                              Days
goods by eliminating non-value added steps from the
processes and reducing the amount of raw material in               40
inventory. As of September 2006, the United States                 20
Mint’s cycle-time was 72 days, an increase of three days
from 69 days as of September 2005. The targeted cycle­           -
time was 67 days. This performance goal was set at an                    FY 2006 FY 2005 FY 2004 FY 2003
approximate target level, and the deviation from that
level is slight. There was no effect on the overall program or activity performance.

The United States Mint plans to continue improving the cycle-time of the circulating coinage through
further implementation of lean manufacturing techniques. In FY 2006, the United States Mint completed
training for many manufacturing managers on lean manufacturing processes. This training will serve to
eliminate unnecessary or redundant practices and should lead to improvements in plant productivity. The
Presidential $1 Coin program will begin in FY 2007. This program will present challenges to reducing the
cycle-time from current levels, as four new presidential designs (one per quarter) will be introduced into
circulation. To address this challenge, United States Mint and Federal Reserve officials are working
together to ensure that sufficient quantities of the new Presidential $1 coins will be ready to be distributed
into circulation on each launch date. The Federal Reserve has assigned one of its staff members with
expertise in coin distribution and inventory control from its Washington headquarters to help coordinate the
circulation plans.

Order fulfillment
Order fulfillment is a measure that tracks the overall
order fulfillment for the circulating coins shipped to the                     Order fulfillment
                                                                             95%     94%
Federal Reserve and the numismatic coins sold to the                 100%
public. Both components are then weighted by their                   80%
respective share of the total revenues and other financing
                                                                     60%
sources. Order fulfillment in FY 2006 was 95 percent, a
slight increase from the result of 94 percent in FY 2005.            40%
Essentially, this result means that 95 percent of the                20%                    N/A     N/A
United States Mint’s revenue and other financing sources              0%
during FY 2006 was earned from products that were                           FY 2006 FY 2005 FY 2004 FY 2003
shipped to the customer in a timely fashion. This result
meets the target of 95 percent.




                                                   20 

Protection cost per square foot
Protection cost per square foot comprises the Office of            Protection cost per square foot
Protection’s total operating cost divided by the area of
usable space. Usable space is defined as 90 percent of
the total square footage. The Office of Protection uses        $40     $32.49    $32.43   $32.51
the cost per square foot to provide a measurement of
                                                               $30
efficiency over time. The square footage of usable space
at the United States Mint is a stable figure and will only     $20
change significantly with major events such as the             $10                                 N/A
addition or removal of a facility. Protection cost per        $-
square foot for FY 2006 was $32.49, a slight increase                  FY 2006 FY 2005 FY 2004 FY 2003
from $32.43 in FY 2005. This performance did not meet
the target of $32.00.

The United States Mint is identifying the use of automation to replace the functions currently performed by
police officers. While these strategies may help reduce certain personnel and overtime costs, the ability to
apply downward pressure on costs is taken with a long-term view and must be tempered by the level of
readiness necessary to fulfill the Protection mission.

Total losses
The United States Mint performs its protection function
                                                                               Total losses
by minimizing the vulnerability to theft and preventing
unauthorized access to critical assets. Total losses
measures the dollar amount of losses incurred because of      $4,000
                                                                                          $3,109
the realization of threats against the United States Mint.    $3,000
Total losses measures losses within three categories
                                                              $2,000             $1,135
representing cases that have been investigated and
closed:                                                       $1,000                               N/A
                                                                          $0
1.	 Financial Losses: intentional monetary losses, thefts         $0
    or fraud from metal reserves, produced coinage,                    FY 2006 FY 2005 FY 2004 FY 2003
    retail sales and other administrative losses.
2.	 Cost of Intrusions: the cost of repair or recovery from an intentional intrusion into United States Mint
    systems and facilities either electronically or physically.
3.	 Productivity Losses: the cost of intentional damage or destruction to production capabilities, including
    related costs for continuity of operations.

Total losses as of the end of FY 2006 were $0 (zero) compared with $1,135 in FY 2005. This performance
exceeds the target of $15,000. Results are from cases that have been investigated and closed during the
fiscal year. While the FY 2006 result represents the ideal performance, there are open cases that are still
under investigation that may be reported as losses at a future date. The protection of United States Mint
assets remains a high priority. Efforts to prevent losses include automating exit scanning procedures to
scan employees for valuable assets and error coins, and installing electronic systems to verify identity and
scan for weapons and explosives upon entry to each facility.




                                                  21 

                      CURRENT AND FUTURE CHALLENGES 

The United States Mint is being challenged by a wide range of changes in the world around us--changes in
how people purchase goods and services, rapidly rising metal costs, and whether people collect coins as
hobby or investment. While we are not in a position to control these changes in the outside world, we are
in a position to control how we prepare for them and how we respond to them. We have chosen to take a
proactive approach in addressing them—working closely with our stakeholders, customers and vendors to
safeguard, to the greatest extent practicable, our ability to continue to effectively fulfill our mission for the
American public.

KEY CHALLENGES

Rising Prices of Metal Leading to Higher Production Costs

Perhaps the greatest challenge facing the United States Mint is the increased cost of producing circulating
coinage resulting from the dramatic increases in the prices of zinc, copper, and nickel. In fact, as of the end
of FY 2006, the costs of producing one-cent and 5-cent coins were exceeding the face value of these coins.
These increases in metal prices also detract from the seigniorage levels for other coin denominations.

Potential Downward Trend in Demand for Circulating Coins

Over the past five years, the public’s use of credit and debit cards, ePurses, stored value cards (like phone
cards), contactless transaction cards (like EZPass and SpeedPass), and other forms of electronic
transactions has increased substantially. This transformation of the economy toward more cash-free
transactions might have significant implications for the nation’s demand for circulating coins in the future.
To prepare for and respond to this potential change, we need to reduce our costs and develop new
initiatives. The numismatics area offers us the flexibility to develop a wide range of new initiatives.

Most Popular Numismatic Coin Program Is Coming to an End

In recent years, there has been an increased demand for numismatic products — much of it because of the
popularity of our 50 State Quarters® Program. However, our recurring numismatic product line will shrink
dramatically when the 50 State Quarters Program ends in December 2008. The introduction of a 24-karat
program in FY 2006 and the launch of the Presidential $1 Coin Program in 2007 will boost our
numismatics revenue in the short term. However, history shows that initial surges of collector demand for
new coin products slow significantly after two to three years, and this slowdown would coincide with the
conclusion of the 50 State Quarters Program.

Volatility in Short-Term Coin Production Requirements

Introduction of the 24-karat Gold American Buffalo Coin Program in FY 2006 and the Presidential $1 Coin
Program in FY 2007, requires significant escalation in production and packaging in all of our coin
production facilities. However, these production increases in 2006-2008 will likely be followed by
significant declines in both circulating and numismatic production levels in 2009 — when the 50 State
Quarters Program ends. To prepare for and respond to these changes, we need to develop new numismatic
initiatives, products, and sales channels; restructure our production capacity;, and reorient our workforce.

Skill Gaps in the United States Mint Workforce

The United States Mint of 2011 will be very different from the United States Mint of 2006. To prepare for
and respond to this change, we need to implement lean manufacturing processes; develop more efficient,


                                                     22 

effective, and innovative business practices; provide specialized training programs to enhance the skills of
our existing workforce; and attract employees with the skills to meet the needs of the future. The result
will be a smaller but more technically proficient workforce in the areas of marketing, finance, information
technology, and production — a workforce that is focused on achieving mission-critical strategic
objectives.

Threats to United States Mint People, Operations, and Assets

We also need to continue building our ability to provide the utmost in security and safety for our people,
operations, and assets. Although we have made a great deal of progress — both in providing physical
security and in creating a safer workplace — these challenges will continue. To meet these challenges, we
will invest in proven new technologies designed to effectively identify and thwart potential threats.




                                                   23 

            ANALYSIS OF SYSTEMS, CONTROLS AND LEGAL 

                          COMPLIANCE 


INTERNAL CONTROLS PROGRAM

The United States Mint management is responsible for establishing and maintaining effective internal
controls, which includes safeguarding of assets and compliance with applicable laws and regulations.
Therefore, the United States Mint has made a conscientious effort during FY 2006 to meet the internal
control requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the Federal Financial
Management Improvement Act (FFMIA), Office of Management and Budget (OMB) Circular A-123, and
the Government Performance and Results Act (GPRA) of 1993.

The systems of management controls for the United States Mint are designed to ensure that:

    a)   Programs achieve their intended results;
    b)   Resources are used consistent with overall mission;
    c)   Programs and resources are free from waste, fraud, and mismanagement;
    d)   Laws and regulations are followed;
    e)   Controls are sufficient to minimize any improper or erroneous payments;
    f)   Performance information is reliable;
    g)   Systems security is in substantial compliance with all relevant requirements;
    h)   Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels;
         and
    i)   Financial management systems are in compliance with Federal financial systems standards.

The United States Mint has assessed its internal controls and, for all its responsibilities, we hereby provide
reasonable assurance that the above listed management control objectives, taken as a whole, were achieved
by the United States Mint during FY 2006. Specifically, this assurance is provided relative to Sections 2
and 4 of FMFIA. We further assure that our financial management systems are in substantial compliance
with the requirements imposed by FFMIA. These assurances are as of September 30, 2006.

The United States Mint has assessed the effectiveness of the internal controls over financial reporting on
the Treasury designated financial line items in accordance with OMB Circular A-123, Management’s
Responsibility for Internal Control. The United States Mint evaluated controls over the Treasury
designated consolidated financial statement line items, for which the United States Mint contributes 10% or
greater, including accounts payable, accounts receivable, inventory and fixed assets. Based on the results
of this evaluation, the United States Mint can provide reasonable assurance that internal controls over
financial reporting on the Treasury designated consolidated financial statement line items and internal
financial reports produced for the United States Mint was, as of June 30, 2006, operating effectively and no
material weakness was found in the design or operation of the internal control over such financial reporting.

The FY 2006 assessment performed in accordance with OMB Circular A-123 was conducted by obtaining
and documenting an understanding of the policies, processes and procedures in effect, determining the
significant control mechanisms and performing detail tests of transactions to ascertain the effectiveness of
the identified controls. Each control tested was considered in light of the associated and/or mitigating
controls that were in effect. The overall result was considered and conclusions obtained as to the overall
effectiveness of the controls in place.

FMFIA SECTION 2 MATERIAL WEAKNESS

There are no Material Weaknesses to report on.




                                                    24 

FMFIA SECTION 4 – MATERIAL NONCONFORMANCE
There is no Material Nonconformance to report on.

LEGAL COMPLIANCE
The United States Mint was found not to be in full compliance with FFMIA in that at the transactional
level, the United States Governmental Standards General Ledger is not fully adopted. This will be
remedied with the migration of the United States Mint’s general ledger to an enterprise-wide automated
accounting system serviced by the Bureau of Public Debt’s Administrative Resource Center in October
2006.




                                                 25 

            LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the United States Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). While the
statements have been prepared from the books and records of the United States Mint in accordance with
U.S. generally accepted accounting principles for Federal entities and the formats prescribed by OMB, the
statements are in addition to the financial reports used to monitor and control budgetary resources which
are prepared from the same books and records. The statements should be read with the realization that they
are for a component of the U.S. Government.




                                                 26 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                          Independent Auditors’ Report


Inspector General 

United States Department of the Treasury: 


Director 

United States Mint: 


We have audited the accompanying balance sheets of the United States Mint (Mint) as of September 30,
2006 and 2005, and the related statements of net cost, changes in net position, financing, custodial activity,
and the combined statements of budgetary resources (hereinafter referred to as “financial statements”) for
the years then ended. These financial statements are the responsibility of the Mint’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Mint’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Mint as of September 30, 2006 and 2005, and its net costs, changes in net position,
budgetary resources, reconciliation of net costs to budgetary obligations, and custodial activity for the
years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 to the financial statements, in fiscal year 2006, the Mint adopted the provisions of
the Federal Accounting Standards Advisory Board’s Statement of Federal Financial Accounting Standards
No. 27, Identifying and Reporting Earmarked Funds.




                                                                        27
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 8,
2006, on our consideration of the Mint’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 8, 2006




                                                      28 

                                      DEPARTMENT OF THE TREASURY

                                          UNITED STATES MINT

                                            BALANCE SHEETS

                                                   (In Thousands)


                                                                               As of September 30,
                                                                              2006             2005
ASSETS
    Intragovernmental:
        Fund Balance with Treasury (Note 3)                                    $225,917         $279,387
        Accounts Receivable, Net (Note 4)                                             0               58
        Advances and Prepayments (Note 5)                                         3,948            4,114
    Total Intragovernmental Assets                                              229,865          283,559

        Custodial Gold and Silver Reserves (Note 6)                           10,493,740      10,493,740
        Accounts Receivable, Net (Note 4)                                         28,120          14,900
        Inventory and Related Property (Notes 7 & 22)                            253,329         185,630
        Supplies                                                                  15,318          13,193
        Property, Plant and Equipment, Net (Note 8)                              233,394         271,581
        Advances and Prepayments (Note 5)                                          1,859           1,612
     Total Non-Intragovernmental Assets                                       11,025,760      10,980,656


Total Assets (Notes 2 and 14)                                                $11,255,625     $11,264,215

         Heritage Assets (Note 9)

LIABILITIES
    Intragovernmental:
        Accounts Payable                                                          $1,183              $313
        Accrued Workers' Compensation and Benefits                                 6,541              6,805
    Total Intra-governmental Liabilities                                           7,724              7,118


        Custodial Liability to Treasury (Note 6)                              10,493,740      10,493,740
        Accounts Payable                                                          52,436          40,513
        Surcharges payable (Note 3)                                                8,361          10,678
        Accrued Payroll and Benefits                                              14,923          14,996
        Other Actuarial Liabilities                                               31,482          33,855
        Unearned Revenues                                                          3,362           5,791
     Total Non-Intragovernmental Liabilities                                   10,604,304      10,599,573

Total Liabilities (Notes 10 and 14)                                           10,612,028      10,606,691

         Commitments and Contingencies (Notes 12 & 13)

NET POSITION

     Cumulative Results of Operations - Earmarked Funds (Note 14)                643,597         657,524


Total Liabilities and Net Position                                           $11,255,625      $11,264,215




The accompanying notes are an integral part of these financial statements.

                                                        29
                                     DEPARTMENT OF THE TREASURY

                                         UNITED STATES MINT

                                       STATEMENTS OF NET COST

                                                    (In Thousands)



                                                                             For The Years Ended September 30,
                                                                                 2006                 2005
NUMISMATIC PRODUCTION AND SALES

     Gross Cost                                                                     $952,150             $524,072
     Less Earned Revenue                                                           (1,037,620)           (602,796)

Net Program Revenue                                                                   (85,470)            (78,724)

CIRCULATING PRODUCTION AND SALES

     Gross Cost                                                                      603,352              445,446
     Less Earned Revenue (Note 16)                                                  (603,352)            (445,446)

Net Program Revenue                                                                         -                    -

Net Revenue Before Protection of Assets                                               (85,470)            (78,724)

PROTECTION OF ASSETS

     Protection Costs                                                                 42,886               37,543
     Less Earned Revenue                                                                 (59)                (107)

Net Cost of Protection of Assets                                                      42,827               37,436


Net Revenue from Operations (Notes 14 and 15)                                       ($42,643)            ($41,288)




The accompanying notes are an integral part of these financial statements.



                                                          30
                             DEPARTMENT OF THE TREASURY

                                 UNITED STATES MINT

                         STATEMENTS OF CHANGES IN NET POSITION

                                                 (In Thousands)





                                                                             For The Years Ended September 30,
                                                                                   2006             2005
CUMULATIVE RESULTS OF OPERATIONS

NET POSITION, Beginning of Year - Earmarked Funds (Note 14)                          $657,524         $657,797

FINANCING SOURCES:

   Transfers to the Treasury General Fund On-Budget                                   (84,000)         (45,000)
   Transfers to the Treasury General Fund Off-Budget                                 (666,000)        (730,000)
   Other Financing Sources (Seigniorage) (Note 16)                                    682,480          722,686
   Imputed Financing Sources (Note 11)                                                 10,950           10,753
Total Financing Sources                                                               (56,570)         (41,561)

Net Revenue from Operations                                                            42,643          41,288

Net Position, End of Year - Earmarked Funds (Note 14)                                $643,597        $657,524




The accompanying notes are an integral part of these financial statements.

                                                        31
                                    DEPARTMENT OF THE TREASURY

                                        UNITED STATES MINT

                                STATEMENTS OF BUDGETARY RESOURCES

                                            (In Thousands)



                                                                      For The Years Ended September 30,
                                                                           2006               2005
Budgetary Resources

Unobligated Balance,
brought forward, October 1,                                                   $112,870           $130,290
Spending Authority from Offsetting Collections
    Earned
     Collected                                                               1,650,475          1,041,625
     Change in Receivable from Federal Sources                                      (58)            (4,363)
   Subtotal                                                                   1,650,417          1,037,262

Permanently Not Available                                                      (84,000)           (45,000)

     TOTAL BUDGETARY RESOURCES                                               $1,679,287         $1,122,552

Status of Budgetary Resources
Obligations Incurred
    Reimbursable (Note 18)                                                   $1,638,738         $1,009,682

Unobligated Balances
   Apportioned                                                                  40,549            112,870

     TOTAL STATUS OF BUDGETARY RESOURCES                                     $1,679,287         $1,122,552

Change in Obligated Balances
Obligated balance, net
    Unpaid Obligations, brought forward, October 1                             $160,848           $203,313
    Less: Uncollected customer payments from Federal                               (58)             (4,422)
    Sources, Brought Forward, October 1
    Total unpaid obligated balance, net                                        160,790            198,891
Obligated Incurred, net (Note 18)                                            1,638,738          1,009,682
Gross Outlays                                                                1,619,945          1,039,786
Change in uncollected customer payments from
      Federal sources                                                               (58)            (4,363)
Obligated balance, net, end of the period
      Unpaid obligations                                                       179,561            160,848
      Uncollected customer payments from
      Federal sources                                                                0                (58)
      Total, unpaid obligated balance, net end of period                       179,561            160,790

Net Outlays
  Net outlays
     Gross outlays                                                            1,619,945          1,039,786
     Collections                                                             (1,650,475)        (1,041,625)

     TOTAL OUTLAYS                                                            ($30,530)           ($1,839)




The accompanying notes are an integral part of these financial statements.




                                                           32
                                         DEPARTMENT OF THE TREASURY

                                              UNITED STATES MINT

                                           STATEMENTS OF FINANCING

                                                         (In Thousands)


                                                                                       For The Years Ended September 30,
                                                                                            2006               2005
Resources Used to Finance Activities:

Budgetary Resources Obligated
Obligations Incurred                                                                         $1,638,738        $1,009,682
Less: Spending Authority from Offsetting Collections and Recoveries                           1,650,417         1,037,262
Net Obligations                                                                                 (11,679)          (27,580)

Other Resources
Transfers to the Treasury General Fund On-Budget                                                (84,000)          (45,000)
Transfers to the Treasury General Fund Off-Budget                                              (666,000)         (730,000)
Imputed Financing from Costs Absorbed by Others (Note 11)                                        10,950            10,753
Other Financing Sources (Seigniorage) (Note 16)                                                 682,480           722,686
Net Other Resources Used to Finance Activities                                                  (56,570)          (41,561)
Total Resources Used to Finance Activities                                                      (68,249)          (69,141)

Resources Used to Finance Items Not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but
 Not Yet Provided                                                                                13,456           (10,520)
Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                   99,315            73,419
Other                                                                                           (84,000)          (45,000)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                     28,771            17,899
Total Resources Used to Finance the Net Cost of Operations                                      (97,020)          (87,040)

Components Requiring or Generating Resources in Future Periods
Increase in Exchange Revenue Receivable from the Public                                         (13,219)              591
Total Components of Net Cost of Operations that will Require or Generate Resources
in Future Periods                                                                               (13,219)              591

Components not Requiring or Generating Resources in the Current Period
Depreciation and Amortization                                                                   56,666             44,396
Revaluation of Assets                                                                           11,068              2,853
Other                                                                                             (138)            (2,088)
Total Components of Net Revenue from Operations that will not require or Generate
  Resources                                                                                     67,596             45,161
Total Components of Net Revenue from Operations that will not require or Generate
 Resources in the Current Period                                                                 54,377            45,752
Net Revenue from Operations                                                                    ($42,643)         ($41,288)




The accompanying notes are an integral part of these financial statements.




                                                               33
                                      DEPARTMENT OF THE TREASURY

                                          UNITED STATES MINT

                                    STATEMENTS OF CUSTODIAL ACTIVITY

                                                   (In Thousands)



                                                                             For The Years Ended September 30,
                                                                                   2006              2005
Revenue Activity
   Sources of Cash Collections:

Sale of Treasury Silver (Note 21)                                                          $0           $52,745

Total Revenue Received                                                                      0           52,745

Disposition of Custodial Revenue & Collections

   Transferred to the General Fund                                                          0           52,745

   Total Disposition of Custodial Revenue                                                   0           52,745

Net Custodial Activity                                                                     $0                $0




The accompanying notes are an integral part of these financial statements.


                                                         34

                                         DEPARTMENT OF THE TREASURY
                                             UNITED STATES MINT
                                     NOTES TO THE FINANCIAL STATEMENTS
                                    FOR THE YEAR ENDED SEPTEMBER 30, 2006


(Dollars are in thousands except Fine Troy Ounce information)


Note 1 Summary of Significant Accounting Policies

Reporting Entity
Established in 1792, the United States Mint is a bureau of the Department of the Treasury (Treasury). The mission of the
United States Mint is to manufacture coins for general circulation, to manufacture and sell numismatic products for the benefit
of the Federal Government and various recipient organizations, and to protect certain federal assets in its custody. Numismatic
products include medals; proof coins; uncirculated coins; platinum, gold, and silver bullion coins; and commemorative coins.
Custodial assets consist of the United States’ gold and silver metal reserves. These custodial reserves are often referred to as
“deep storage” and “working stock” and are reported on the Balance Sheet.

Manufacture of numismatic products is financed principally through sales to the public. Manufacture of circulating coinage is
financed through sales of coins at face value to the Federal Reserve System. Activities related to protection of federal
custodial assets are funded by revenues and financing sources received by the United States Mint Public Enterprise Fund
(PEF).

Pursuant to Public Law 104-52, Treasury Postal Service and General Government Appropriation Bill for FY 1996, as codified
at 31 U.S.C § 5136, the PEF was established to account for all revenues and expenses related to production and sale of
numismatic products and circulating coinage and protection activities. Expenses accounted for in this fund include the cost of
metals used in circulating coin production, the cost of metals (gold, silver, platinum, cupro-nickel, manganese and zinc) used in
numismatic coin production, fabrication and transportation costs for metals used in circulating coinage and numismatic
products, and costs of transporting circulating coinage between the United States Mint production facilities and Federal
Reserve Banks (FRB). Other costs/expenses accounted for in this fund include costs related to research and development and
purchases of equipment, as well as capital improvements and protection costs. P.L. 104-52 states that any amount in the PEF
that is determined to be in excess of the amount required by the PEF shall be transferred to the Treasury.

Treasury’s Bullion Fund (Bullion Fund) is used to account for United States gold and silver reserves. A separate Schedule of
Custodial Gold and Silver Reserves has been prepared for the “deep storage” portion of the Treasury gold and silver reserves
for which the United States Mint acts as custodian.

Basis of Accounting and Presentation
The accompanying Financial Statements were prepared in conformity with the reporting format promulgated by the Office of
Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements” and in accordance with accounting
standards issued by the Federal Accounting Standards Advisory Board (FASAB). The United States Mint’s financial
statements have been prepared to report the financial position, net cost of operations, changes in net position, budgetary
resources, reconciliation of net costs to budgetary obligations, and custodial activity, as required by the Chief Financial
Officers Act of 1990.

Management uses estimates and assumptions in preparing financial statements. Those estimates and assumptions affect the
reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities, and the reported revenues and
expenses. Actual results could differ from those estimates. Accounts subject to estimates include depreciation, imputed costs,
payroll and benefits, accrued worker’s compensation, and unemployment benefits.

The accompanying financial statements have been prepared on the accrual basis of accounting. Under the accrual method,
revenues and other financing sources are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. All intra-United States Mint transactions and balances have been eliminated.

                                                               35                                                  (Continued)
Earned Revenues and Other Financing Sources (Seigniorage)
Circulating Sales: P.L. 104-52, establishing the PEF, provides for the sale of circulating coinage at face value to the Federal
Reserve System. Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.

Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins is limited to the recovery of
the cost of manufacturing those coins. Coins are sold at face value. The difference between the face value of circulating coins
sold and the total cost of producing those coins is considered a financing source in accordance with FASAB guidelines.

Other Financing Sources (Seigniorage) is the face value of newly minted coins less the cost of production (which includes the
cost of the metal, manufacturing, and transportation). Seigniorage is the profit from coining money. Seigniorage adds to the
government’s cash balance, but unlike the payment of taxes or other receipts, it does not involve a transfer of financial assets
from the public. Instead, it arises from the exercise of the Government’s power to create money and the public’s desire to hold
financial assets in the form of coins. Therefore, the President’s Budget excludes Seigniorage from receipts and treats it as a
means of financing. The President’s Budget also treats profits resulting from the sale of gold as a means of financing, because
the value of gold is determined by its value as a monetary asset rather than as a commodity. Other financing sources
(Seigniorage) is recognized when coins are shipped to the FRB in return for deposits.

Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are shipped to customers. Prices
for numismatic products are based on the product cost plus a reasonable net program revenue. Bullion products are priced
based on the market price of the precious metals plus a premium to cover manufacturing costs.

Rental Revenue: The United States Mint receives rental revenue from floor space that is subleased in two United States Mint
facilities located in Washington, D.C. The space is subleased to other federal government entities. For the purpose of
presentation, rental revenue is combined with numismatic sales on the statement of net cost.

Protection Revenue: This is derived from revenue received from the FRB for protection services provided after hurricane
Katrina.

Fund Balance with Treasury
All cash is maintained at the Treasury. Fund Balance with Treasury is the aggregate amount of the United States Mint’s cash
accounts with the U.S. Government’s central accounts from which the United States Mint is authorized to make expenditures
and pay liabilities. It is an asset because it represents the United States Mint’s claim to the U.S. Government resources.

Accounts Receivable
Accounts receivable are amounts due to the United States Mint from the public and other federal agencies. An allowance for
uncollectible customer accounts receivable from the public is established for all accounts that are more than 180 days past due.
However, the United States Mint will continue collection action on those accounts that are more than 180 days past due as
specified by the Debt Collection Improvement Act of 1996.

Inventories and Related Property
Inventories of circulating and numismatic coinage that do not contain either gold or silver are valued at the lower of cost or
market. Cost of the metal and fabrication components of the inventories are determined using a weighted average inventory
methodology. Conversion costs, i.e., the cost to convert the fabricated blank into a finished coin, are valued using a standard
cost methodology.

Numismatic coinage containing Treasury gold or silver does not include the value of the Treasury gold or silver because this is
a non-entity asset. Those costs appear as “Custodial Gold and Silver Reserves” and are valued at the statutory rate of $42.2222
per fine troy ounce (FTO) gold and $1.292929292 per FTO silver.

United States Mint owned platinum and silver are valued at the lower of cost or market using a weighted average inventory
methodology.




                                                              36                                                  (Continued)
Custodial Gold and Silver Reserves
Custodial gold and silver reserves consist of both “deep storage” and “working stock” gold and silver.

Deep Storage is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the United
States Mint secures in sealed vaults. Deep Storage gold comprises the vast majority of the Reserve and consists primarily of
gold bars.

Working Stock is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the United
States Mint uses as the raw material for minting congressionally authorized coins. Working stock gold comprises only about
one percent of the Gold Bullion Reserve and consists of bars, blanks, unsold coins, and condemned coins.

Treasury allows the United States Mint to use some of its gold and silver as working stock. Generally, the United States Mint
will replace its working stock when used in production with purchases of gold and silver on the open market. In those cases
where the gold or silver is not replaced, the United States Mint reimburses Treasury the market value of the depleted gold or
silver.

Supplies
Supplies are items that are not considered inventory and are not a part of the finished product. These items include plant
engineering and maintenance supplies. Supplies are accounted for using the consumption method, whereby supplies are
recognized as assets upon acquisition and expensed as they are consumed.

Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances and prepaid expenses at the time of
prepayment and are expensed when related goods and services are received.

Property, Plant and Equipment
Property, plant and equipment are valued at cost less accumulated depreciation. The United States Mint’s threshold for
capitalizing new property, plant and equipment is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation
is computed on a straight-line basis over the estimated useful lives of the related assets as follows:

    Computer Equipment                                             3 to 5 years
    ADP Software                                                   2 to 10 years
    Machinery and Equipment                                        7 to 20 years
    Structures, Facilities and Leasehold Improvements              10 to 30 years

Major alterations and renovations are capitalized over the shorter of a 20-year period or the remaining useful life of the asset
and depreciated using the straight-line method, while maintenance and repair costs are charged to expense as incurred. There
are no restrictions on the use or convertibility of general property, plant and equipment.

Heritage Assets
Heritage assets are items that are unique because of their historical, cultural, educational, or artistic importance. These
items are collection type assets that are maintained for exhibition and are preserved indefinitely.

Liabilities
Liabilities represent actual and estimated amounts likely to be paid as a result of transactions or events that have already
occurred. All liabilities covered by budgetary resources can be paid from revenues received from the United States Mint PEF.

Surcharges
Legislation authorizing commemorative programs often requires that the PEF remit a portion of the sales proceeds to recipient
organizations. These amounts are defined as "Surcharges." A surcharges payable is established for surcharges received but
not yet paid to the designated recipient organization.



                                                              37                                                  (Continued)
Pursuant to the P.L. 104-208, Omnibus Consolidated Appropriations for Fiscal Year 1997 (the Act), recipient organizations
cannot receive surcharge payments unless all of the United States Mint’s operating costs of the coin program are fully
recovered. The United States Mint may make interim surcharge payments during a commemorative program if the recipient
organization meets the eligibility criteria in the Act, if the profitability of the program is determinable and if the United States
Mint is assured it is not at risk of a loss. P.L. 108-15, American 5-Cent Coin Design Continuity Act of 2003, contains a
provision that recipient organizations have two years from the end of the program sales to meet the requirements of P.L. 104
208. If the requirements are not met within two years, the surcharges collected are to be deposited in the Treasury as
miscellaneous receipts. Additionally, P.L. 108-15 changed the fund raising requirement for recipient organizations from an
amount equal to the maximum surcharges possible based on the maximum mintage to an amount equal to the surcharges
actually collected based on sales.

Earmarked Funds
The United States Mint implemented the Statement of Federal Financial Accounting Standards No. 27, Identifying and
Reporting Earmarked Funds in FY 2006, which required separate identification of the earmarked funds on the Balance Sheet,
Statement of Net Position, and selected footnotes.

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources are required by statute to be
used for designated activities or purposes, and must be accounted for separately for the government’s general revenues.

Pursuant to P. L. 104-52, the PEF was established to account for all revenue and expenses related to the production and sale of
numismatic products and circulating coinage and protection activities. Thus, the United States Mint’s PEF is considered to be
entirely earmarked (see Note 14).

Unearned Revenues
These are amounts received from customers for which the numismatic products have not been shipped.

Return Policy
If for any reason a customer is dissatisfied, the entire product must be returned within 30 days of receiving the order to receive
a refund or replacement. Shipping charges are not refunded. Further, the United States Mint will not accept partial returns nor
issue partial refunds. Historically, the United States Mint receives very few returns, which are immaterial. Therefore, no
reserve for returns is considered necessary.

Shipping and Handling
The United States Mint reports shipping and handling cost as Cost of Goods Sold and not as part of Selling or General and
Administrative expenses. General postage costs for handling administrative functions are reported as part of the United States
Mint’s General and Administrative Expenses.

Annual, Sick and Other Leave
Annual leave is accrued when earned and reduced as leave is taken. The balance in the accrued leave account is calculated
using current pay rates. Sick leave and other types of non-vested leave are charged to operating costs as they are used.

Accrued Workers Compensation and Other Actuarial Liabilities
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to cover federal civilian
employees injured on the job, employees who have incurred a work-related injury or occupational disease, and to pay
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational disease. The FECA program is
administered by the United States Department of Labor (DOL), which pays valid claims and subsequently seeks
reimbursement from the United States Mint for these paid claims.
The FECA liability is based on two components. The first component is based on actual claims paid by DOL but not yet
reimbursed by the United States Mint. There is generally a two-to three-year time period between payment by DOL and
reimbursement to DOL by the United States Mint. The second component is the actuarial liability, which estimates the liability
for future payments as a result of past events. The actuarial liability includes the expected liability for death, disability,
medical, and miscellaneous cost for approved compensation cases.


                                                                38                                                   (Continued)
Protection Costs
Virtually all of the Treasury’s gold and majority of the silver reserves are in the custody of the United States Mint, which is
responsible for safeguarding the reserves. These costs are borne by the United States Mint, but are not directly related to the
circulating or numismatic coining operations of the United States Mint. Organizationally, the Protection Strategic Business
Unit is a separate line of business from coining operations.

Other Cost and Expenses (Mutilated and Uncurrent)
These consist primarily of returns of mutilated or uncurrent coins to the United States Mint. Coins that are chipped, fused, and
not machine-countable are considered mutilated. The United States Mint reimburses the entity that sent in the mutilated coins
at the face value of these coins if the coins are individually identifiable. If the coins have melted (as in a fire), the United
States Mint reimburses the entity an amount based on the metal content of the melted mass. Uncurrent coins are worn, but
machine-countable, and their genuineness and denomination are still recognizable. Uncurrent coins are replaced with new
coins of the same denomination by the FRB. All mutilated or uncurrent coins received by the Mint are melted, and the metal is
shipped to a fabricator to be recycled in the manufacture of coinage strip.

Tax Exempt Status
As an agency of the Federal Government the United States Mint is exempt from all income taxes imposed by any governing
body, whether it is a federal, state, commonwealth, local, or foreign government.

Concentrations
The United States Mint purchases all of the coil used in the production of its circulating products from three vendors at
competitive market prices.

Reclassifications
Certain fiscal year 2005 amounts have been reclassified to conform to current year presentation.

Transfers to the Treasury General Fund
The United States Mint transfers to the Treasury General Fund amounts in the PEF determined to be in excess of the amounts
required for United States Mint operations and programs. These amounts are generated from the other financing sources
(Seigniorage) derived from the sale of circulating coins and from net revenues generated from the sale of
numismatic products.
Protection costs, except those costs allocated to circulating coin production, are deducted from amounts generated from the
sale of numismatic coins.

Excess amounts generated from other financing sources (Seigniorage) are off budget and deposited in the Treasury General
Fund. Off budget means that these funds cannot be used to reduce the annual budget deficit. Instead they are used as a
financing source; i.e., they reduce the amount of cash that Treasury has to borrow to pay interest on the national debt.

Excess amounts from revenues generated from the sale of numismatic products less protection costs are on budget and
deposited in the Treasury General Fund. Unlike Seigniorage, the numismatic transfer is available as current operating revenue
or can be used to reduce the annual budget deficit.

Budgetary Resources
The United States Mint receives all of its financing from the public and receives an apportionment from the OMB. This
apportionment is considered a budgetary authority. The United States Mint’s Budgetary Resources consist of unobligated
balances, transfers, and spending authority from offsetting collections, which is net of amounts that are permanently not
available. “Permanently not available,” funds are numismatic transfers to the General Fund.




                                                              39                                                  (Continued)
Note 2 Non-Entity Assets
Components of Non-entity Assets at September 30 are as follows:
                                                                                            2006                 2005
        Custodial Gold Reserves (Deep Storage)                                       $10,355,539          $10,355,539
        Custodial Silver Reserves (Deep Storage)                                           9,148                9,148
        Custodial Gold Reserves (Working Stock)                                          117,514              117,514
        Custodial Silver Reserves (Working Stock)                                         11,539               11,539
     Total Non-entity Assets                                                          10,493,740           10,493,740
     Total Entity Assets                                                                 761,885              770,475
Total Assets                                                                         $11,255,625          $11,264,215


Entity assets are assets that the reporting entity has authority to use in its operations. The United States Mint management has
legal authority to use entity assets to meet entity obligations. However, all assets in the possession of the United States Mint
are not entity assets. Treasury allows the United States Mint to use some of its gold and silver as working stock in the
production of coins. The United States Mint must replace the working stock or pay the Treasury General Fund for the used
portion. Thus, Treasury deep storage and working stock gold and silver are all considered non-entity assets.



Note 3 Fund Balance with Treasury
Fund Balance with Treasury at September 30 consist of:
                                                                                            2006                 2005
Revolving Fund                                                                          $225,917             $279,387
    Total Fund Balance with Treasury                                                    $225,917             $279,387

Status of Fund Balance with Treasury

Unobligated Balance                                                                      $40,549             $112,870
Obligated Balance, Not Yet Disbursed                                                     185,368              166,517
Total                                                                                   $225,917             $279,387

The United States Mint does not receive appropriated budget authority. The fund balance with Treasury is entirely available
for use to support the United States Mint operations. At September 30, 2006 and 2005, the revolving fund balance included
$8.4 million and $10.7 million, respectively, in restricted amounts for possible payment of surcharges to recipients
organizations.




                                                              40                                                  (Continued)
Note 4 Accounts Receivable, Net
Components of accounts receivable are as follows:
                                                                            September 30, 2006

                                                       Gross Receivables       Allowance         Net Receivables
Intragovernmental                                                      $0                  $0                  $0
With the Public                                                    28,317                (197)             28,120
    Total Accounts Receivable                                     $28,317               ($197)            $28,120

                                                                            September 30, 2005

                                                       Gross Receivables       Allowance         Net Receivables
Intragovernmental                                                     $58                  $0                 $58
With the Public                                                    15,030                (130)             14,900
    Total Accounts Receivable                                     $15,088               ($130)            $14,958


At September 30, 2006, there were no intragovernmental accounts receivable compared to $58 thousand at September 30,
2005. Such balances would normally represent amounts due from other federal agencies for products or services provided by
the United States Mint. Receivables with the public at September 30, 2006, primarily consist of $21 million receivable from
metal scrap and webbing sold to fabricators. At September 30, 2005, receivables with the public primarily consist of $10
million from metal scrap and webbing.


Note 5 Advances and Prepayments
The components of advances and prepayments at September 30 are as follows:
                                                                                          2006                2005

Intragovernmental                                                                      $3,948              $4,114

With the Public                                                                         1,859               1,612

    Total Other Assets                                                                 $5,807              $5,726

Intragovernmental advances and prepayments at September 30, 2006 and 2005, include $1.9 million and $1.6 million,
respectively, that the United States Mint paid the Treasury Working Capital Fund, for a variety of centralized services. Also
included in intragovernmental advances are the progress payments (advances) for equipment and building improvements under
construction. The United States Mint initiated an entity-wide security upgrade, which requires progress payments be made to
other federal agencies for construction and other related services. As of September 30, 2006 and 2005, the balances for such
payments were $1.1 million and $2.2 million, respectively. The remaining balance of approximately $900 thousand represents
payments made to the United States Postal Service for product delivery services at September 30, 2006 compared to $346
thousand paid at September 30, 2005.

Advances and Prepayments with the public consist primarily of advances for freight forwarding.




                                                             41                                                (Continued)
Note 6 Custodial Gold and Silver Reserves
As custodian, the United States Mint is responsible for safeguarding much of the nation’s gold and silver reserves, which
include Deep Storage and Working Stock. The asset and the custodial liability to Treasury are reported on the Balance Sheet
at statutory rates. In accordance with 31 U.S.C. § 5117 (b) and 31 U.S.C. § 5116 (b) (2) statutory rates of $42.2222 FTO of
gold and $1.292929292 per FTO of silver are used to value the entire custodial reserves held by the United States Mint.

The market value for gold and silver at September 30 is determined by the London Gold Fixing (PM) rate.

Amounts and values of custodial gold and silver in the custody of the United States Mint at September 30
are as follows:
                                                                                              2006             2005
Gold - Deep Storage:
   Inventories (FTO)                                                                 245,262,897        245,262,897
   Market Value ($ per FTO)                                                              $599.25            $473.25
   Market Value ($ in thousands)                                                    $146,973,791       $116,070,666
   Statutory Value ($ in thousands)                                                  $10,355,539        $10,355,539

Gold - Working Stock:
 Inventories (FTO)                                                                  2,783,219           2,783,219
 Market Value ($ per FTO)                                                             $599.25             $473.25
 Market Value ($ in thousands)                                                     $1,667,844          $1,317,158
  Statutory Value ($ in thousands)                                                  $117,514            $117,514

Silver - Deep Storage:
   Inventories (FTO)                                                                7,075,171            7,075,171
   Market Value ($ per FTO)                                                            $11.55                $7.53
   Market Value ($ in thousands)                                                      $81,718              $53,276
   Statutory Value ($ in thousands)                                                    $9,148               $9,148

Silver - Working Stock:
   Inventories (FTO)                                                                8,924,829            8,924,829
   Market Value ($ per FTO)                                                            $11.55                $7.53
   Market Value ($ in thousands)                                                    $103,082               $67,204
   Statutory Value ($ in thousands)                                                   $11,539              $11,539
    Total Market Value of Custodial Gold and
      Silver Reserves ($ in thousands)                                           $148,826,435        $117,508,304
    Total Statutory Value of Custodial Gold and
      Silver Reserves ($ in thousands)                                            $10,493,740         $10,493,740



Note 7 Inventory and Related Property
The components of inventories and related property at September 30 are summarized below:

                                                                                         2006                 2005
Raw Materials                                                                       $113,827              $50,434
Work-In-Process                                                                       61,324               46,384
Inventory held for current sale                                                       56,671               66,857
Inventory held in reserve for future sale                                             21,507               21,955
    Total Inventory and Related Property                                            $253,329            $185,630




                                                            42                                               (Continued)
Raw materials consist of unprocessed materials and byproducts of the manufacturing process and the metal value of unusable
inventory such as scrap or condemned coins that will be recycled into a usable raw material. In addition, the inventory
includes $39 million in fair value silver hedge activity of which additional information can be found in note 22. Work-in
process consist of semi-finished materials. Inventory held for current sale is finished goods inventories and inventory held in
reserve for future sale consist of golden dollar coil.


Note 8 Property, Plant and Equipment, Net
Components of property, plant and equipment are as follows:
                                                                                September 30, 2006


                                                                                 Accumulated             Total Property,
                                                                              Depreciation and                 Plant and
                                                                   Asset Cost    Amortization            Equipment, Net
Land                                                                   $2,529                    $0               $2,529
Structures, Facilities and Leasehold Improvements                     198,181              (116,363)              81,818
Computer Equipment                                                     30,593               (24,287)               6,306
ADP Software                                                           92,188               (81,648)              10,540
Construction-In-Progress                                                8,496                     0                8,496
Machinery and Equipment                                               220,401               (96,696)             123,705
     Total Property, Plant and Equipment, Net                        $552,388            ($318,994)             $233,394

                                                                                September 30, 2005


                                                                               Accumulated             Total Property,
                                                                              Depreciation and           Plant and
                                                                   Asset Cost  Amortization            Equipment, Net
Land                                                                   $2,529                    $0               $2,529
Structures, Facilities and Leasehold Improvements                     184,892               (99,778)              85,114
Computer Equipment                                                     38,956               (23,938)              15,018
ADP Software                                                           96,493               (73,108)              23,385
Construction-In-Progress                                               27,982                     0               27,982
Machinery and Equipment                                               210,532               (92,979)             117,553
     Total Property, Plant and Equipment, Net                        $561,384            ($289,803)             $271,581

United States Mint facilities used to manufacture circulating coinage and numismatic products are owned by the United States
Mint and located in San Francisco, California; Philadelphia, Pennsylvania; Denver, Colorado; and West Point, New York. In
addition, the United States Mint owns the land and buildings at the Fort Knox Bullion Depository in Kentucky.

Depreciation and amortization expenses charged to operations during the years ended September 30, 2006 and 2005, were
$56.7 million and $44.4 million, respectively.


Note 9 Heritage Assets
One mission of the United States Mint is to manufacture coins for circulation and numismatic sales. Assets classified as
heritage assets are predominately coins manufactured in prior years that are held for historical archival purposes. These coins
are examples of the various coins produced by the United States Mint over the years. Also included in heritage assets are
selected artifacts (e.g., balances/scales, obsolete manufacturing equipment, examples of daily activity, etc.) that were used in
years past. Some of the coins and artifacts are priceless while most are relatively common, but the United States Mint
generally does not place a value on the heritage assets. However, the assets are accounted for and controlled for protection and
conservation purposes.
                                                              43                                                  (Continued)
Note 10 Liabilities Not Covered by Budgetary Resources
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:

                                                                                              2006                 2005

         Custodial Gold Reserves (Deep Storage)                                      $10,355,539          $10,355,539
         Custodial Silver Reserves (Deep Storage)                                          9,148                9,148
         Working Stock Inventory-Gold                                                    117,514              117,514
         Working Stock Inventory-Silver                                                   11,539               11,539
     Total Liabilities Not Covered by Budgetary Resources                            $10,493,740          $10,493,740
     Total Liabilities Covered by Budgetary Resources                                    118,288              112,951
Total Liabilities                                                                    $10,612,028          $10,606,691

Liabilities not covered by budgetary resources represent amounts owed in excess of available funds, other amounts or custodial
liabilities to Treasury that are entirely offset by custodial gold and silver reserves held by the United States Mint on behalf of
the Federal Government.


Note 11 Retirement Plans and Other Post-employment Costs (Imputed Financing)
At the end of FY 2006, three hundred and one (301) United States Mint employees participated in the Civil Service Retirement
System (CSRS), to which the United States Mint contributes seven percent of basic pay. On January 1, 1987, the Federal
Employees’ Retirement System (FERS) went into effect pursuant to P.L. 99-335. Most employees hired after December 31,
1983 are automatically covered by FERS and Social Security. Employees hired prior to January 1, 1984 elected to join FERS
or remain in CSRS.

A primary feature of FERS is that it offers a savings plan to which the United States Mint automatically contributes one
percent of basic pay and matches any employee contributions up to an additional four percent of basic pay. In FY 2005, FERS
employees were allowed a maximum annual contribution of 15 percent of salary to a maximum of $14,000. In January of FY
2006, limits on percentage contributions were eliminated. Employees can now contribute any dollar amount or percentage of
their basic pay as long as the annual dollar total does not exceed the Internal Revenue Code limit of $15,000 for FY 2006.
Employees participating in FERS are covered by the Federal Insurance Contribution Act (FICA) for which the United States
Mint contributes a matching amount to the Social Security Administration.

Although the United States Mint contributes a portion for pension benefits and makes the necessary payroll deductions, it is
not responsible for administering either CSRS or FERS. Therefore, the United States Mint does not report CSRS or FERS
assets, accumulated plan benefits or unfunded liabilities, if any, applicable to the United States Mint employees. Reporting
such amounts is the responsibility of the Office of Personnel Management (OPM). OPM has provided the United States Mint
with certain cost factors that estimate the cost of providing the pension benefit to current employees. The cost factors of 25.0
percent of basic pay for CSRS-covered employees and 12.0 percent of basic pay for FERS-covered employees were in use for
FY 2006. These cost factors remain unchanged from FY 2005.

The amounts that the United States Mint contributed to the retirement plans and social security for the year ended
September 30 are as follows:

                                                                                               2006                  2005

Social Security System                                                                      $8,249                $8,456
Civil Service Retirement System                                                              1,515                 1,524
Federal Employees Retirement System
(Retirement & Thrift Savings Plan)                                                          14,883               14,987
    Total Retirement Plans and Other Post-employment Cost                                  $24,647              $24,967




                                                               44                                                  (Continued)
The United States Mint is also recognizing its share of the future cost of post-retirement health benefits and life insurance for
employees while they are still working with an offset classified as imputed financing. OPM continues to report the overall
liability of the Federal Government and make direct recipient payments. OPM has also provided certain cost factors that
estimate the true cost of providing the post-retirement benefit to current employees. The cost factors relating to health benefits
are $5,229 and $4,903 per employee enrolled in the Federal Employees Health Benefits Program in FY 2006 and FY 2005,
respectively. The cost factor relating to life insurance is two-one hundredths percent (.02%) of basic pay for employees
enrolled in the Federal Employees Group Life Insurance Program for FY 2006 and FY 2005.

The amount of imputed cost incurred by the United States Mint for the year ended September 30 is as follows (before
the offset for imputed financing):

                                                                                              2006                  2005

Health Benefits                                                                            $8,266               $8,050
Life Insurance                                                                                 22                   22
Pension Expense                                                                             2,662                2,681
    Total Imputed Cost                                                                    $10,950              $10,753



Note 12 Lease Commitments
The United States Mint as Lessee:

The United States Mint leases office and warehouse space from commercial vendors and the General Services Administration
(GSA). In addition, the agency leases copier and other office equipment from commercial vendors and vehicles from GSA.
With the exception of the commercial leases on two office buildings in Washington, DC, all leases are one-year, or one-year
with renewable option years. The two building leases have terms of 20- and 10-years, respectively. Because all of the United
States Mint’s leases are considered cancelable, there are no minimum lease payments due.


The United States Mint as Lessor:

The United States Mint sub-leases office space to several other federal entities in the two leased buildings in Washington, DC.
The leases vary from one-year with option years to multiple year terms. As of September 30, 2006, the United States Mint
sub-leased in excess of 185,000 square feet in two leased buildings. As of September 30, 2006, tenants include: the Internal
Revenue Service, the Treasury Executive Institute, the Bureau of the Public Debt, the U.S. Customs Service and Border
Protection, the Federal Consulting Group and the U.S. Marshals Service. All of the subleases are operating leases.

Future Projected Receipts:
(In Thousands)

Fiscal Year                                                 Land and Buildings
2007                                                                  $4,045
2008                                                                      176
2009                                                                      180
2010                                                                      183
2011                                                                      187
After 2011                                                                  47
Total Future Operating
Lease Receivables                                                        $4,818




                                                               45                                                   (Continued)
Note 13 Contingencies
The United States Mint is subject to legal proceedings and claims which arise in the ordinary course of its business.
Judgments, if any, resulting from pending litigation against the United States Mint generally would be satisfied from the Public
Enterprise Fund. Likewise, under the Notification and Federal Employee Antidiscrimination and Retaliation Act of 2002 (No
FEAR Act, Public Law 107-174), settlements and judgments related to acts of discrimination and retaliation for
whistleblowing are the responsibility of the United States Mint and will be paid from the PEF. In the opinion of management,
the ultimate resolution of these actions will not materially affect the United States Mint’s financial position or the results of its
operations.

Asserted and pending legal claims for which loss is reasonably possible were estimated to range from $0 million to $1.7
million at September 30, 2006. The United States Mint is subject to various other legal proceedings and claims. In
management's opinion, the ultimate resolution of other actions will not materially affect the United States Mint’s financial
position or net cost.


Note 14 Earmarked Funds
The United States Mint receives revenues and other financing sources from the sale of numismatic and bullion coins, the sale 

of circulating coins to the FRB, and the sale of a variety of related products to customers worldwide. The sales of circulating 

products less the cost of production (which includes the cost of the metal, manufacturing, and transportation) are considered 

other financing sources, which result from the sovereign power of the government to directly create money. These resources 

increase the government’s net position in the same manner as an inflow of resources. 

Public Law 104-52 provides that “all receipts from United States Mint operations and programs, including the production and 

sale of numismatic items, the production and sale of circulating coinage at face value to the FRB, the protection of government

assets, and gifts and bequests of property, real or personal shall be deposited into the PEF and shall be available to fund its

operations without fiscal year limitations.” The PEF eliminates the need for appropriations from the U.S. Government to the 

United States Mint. 

There has been no change to the PEF legislation during or subsequent to the reporting period or before the issuance of the 

United States Mint’s financial statements. 

Because the entire PEF is the United States Mint and the entire entity is earmarked, thus the disclosure requirements related to 

earmarked funds are the financial statements themselves. 



Note 15 Intragovernmental Costs and Earned Revenue
Intragovernmental costs and earned revenue reflect transactions where both the buyer and seller are federal entities. Revenue
with the public reflects transactions for goods or services with a non-federal entity. However, if a federal entity purchases
goods or services from another federal entity and sells those goods to the public, the revenue would be classified as “with the
public,” but the related expense would be classified as “intragovernmental.” The purpose for this classification is to enable the
Federal Government to prepare consolidated financial statements. The following table provides earned revenues, gross cost,
and net program revenue.




                                                                 46                                                   (Continued)
NUMISMATIC PRODUCTION AND SALES                                   2006        2005
  Cost:
    Intragovernmental:
        Selling, General and Administrative                   $31,662     $22,405
        Imputed Costs                                           2,190       1,075
    Total Intragovernmental Costs                              33,852      23,480
    Public:
        Cost of Goods Sold                                    866,961     443,409
        Selling, General and Administrative                    51,337      57,183
    Total Public Cost                                         918,298     500,592
    Gross Cost                                                952,150     524,072
  Revenue:
    Intragovernmental:
        Rent Revenues                                            7,852      6,533
        Other Intragovernmental Revenues                           139         93
    Total Intragovernmental Revenue                              7,991      6,626
    Public                                                   1,029,629    596,170
    Total Earned Revenue                                     1,037,620    602,796

Net Program Revenue                                            (85,470)    (78,724)

CIRCULATING PRODUCTION AND SALES
  Cost:
    Intragovernmental:
        Selling, General and Administrative                    42,227      32,529
        Imputed Costs                                           8,760       9,678
    Total Intragovernmental Costs                              50,987      42,207
    Public:
        Cost of Goods Sold                                    484,324     336,209
        Selling, General and Administrative                    52,319      53,412
        Other Costs and Expenses (Mutilated and Uncurrent)     15,722      13,618
    Total Public Cost                                         552,365     403,239
    Gross Cost                                                603,352     445,446
  Revenue:
    Public                                                    603,352     445,446
    Total Earned Revenues                                     603,352     445,446

Net Program Revenue                                                  -           -

Net Revenue Before Protection of Assets                        (85,470)    (78,724)

PROTECTION OF ASSETS
   Public:
      Protection Cost                                          42,886      37,543
      Total Earned Revenues                                       (59)       (107)

Net Cost of Protection of Assets                               42,827      37,436

Net Revenue from Operations                                    (42,643)   ($41,288)




                                                        47                    (Continued)
Note 16 Earned Revenues and Other Financing Sources (Seigniorage)
Earned revenues and other financing sources (Seigniorage) whether from the FRB or from the public are recognized upon the
shipment of circulating coins and numismatic sales of circulating coins. A portion of the earned revenue from circulating
production and sales displayed on the United States Mint’s Statement of Net Cost is generated by goods and services provided
to the public or to other federal entities. Revenue is limited to the recovery of all costs associated with the production,
administration and distribution of Circulating coins (both to the FRB and to the public), and payment by the United States Mint
for mutilated and uncurrent coins. The difference between the face value of coins and cost is other financing sources
(Seigniorage). A portion of other financing sources (Seigniorage) is returned to the Treasury General Fund as an off-budget
receipt. The United States Mint transfers to the Treasury General Fund amounts in the PEF determined to be in excess of
amounts required to finance operations and programs. All costs are recovered from numismatic sales from which a slight
profit is made and returned to the Treasury General Fund as an on-budget receipt.

The components of circulating coins and numismatic sales of circulating coins for the year ended
September 30 are as follows:
                                                                                              2006               2005
Revenue-FRB                                                                           $603,352            $445,446
Other Financing Sources (Seigniorage)-FRB                                               668,506             699,398
   Total Circulating Coins                                                           $1,271,858          $1,144,844



Revenue-with the public                                                                 $10,459              $14,575
Other Financing Sources (Seigniorage)-with the public                                    13,974               23,288
   Total Numismatic Sales of Circulating Coins                                          $24,433              $37,863



Note 17 Related Parties
The United States Mint is subject to management control by the Secretary of the Treasury.

The United States Mint shipped approximately $1.3 billion and $1.1 billion in coins to the Federal Reserve Banking System in
FY 2006 and 2005, respectively.


Note 18 Apportionment Categories of Obligations Incurred
The United States Mint receives apportionments of its resources from OMB. An apportionment is a plan, approved by the
OMB, to spend resources provided by law. All United States Mint obligations are classified as reimbursable as they are
financed by offsetting collections received in return for goods and services provided. OMB usually uses one of two categories
to distribute budgetary resources. Category A apportionments distribute budgetary resources by fiscal quarters. Category B
apportionments typically distribute budgetary resources by activities, projects, objects or a combination of these categories.
The United States Mint has only category B apportionments.

Details of Obligations Incurred as of September 30 are as follows:
(in thousands)
                                                                                             2006                 2005
Reimbursable:
   Category B
      Total Operating Expenses                                                         $1,618,526           $990,132
      Numismatic Capital                                                                  11,162               5,744
      Circulating and Protection Capital                                                   9,050              13,806
Total Apportionment Categories of Obligations Incurred                                $1,638,738          $1,009,682




                                                              48                                                 (Continued)
Note 19 Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other Financing Sources and
Concepts for Reconciling Budgetary and Financial Accounting, requires an explanation of material differences between
budgetary resources available, the status of those resources, and outlays as presented in the Statement of Budgetary Resources
to the related actual balances published in the Budget of the United States Government (President’s Budget). The President’s
Budget with actual numbers for fiscal year 2006 is expected to be published in February 2007 and made available through
OMB.
Prior to FY2005, the United States Mint used the proprietary method of accounting to replicate the Statement of Budgetary
Resources. This methodology ignored obligations and undelivered orders. When an item became a liability under FASB, the
“obligation” was reported. The primary difference between the Statement of Budgetary Resources and what has been reported
in the Budget of the United States Government is the undelivered order balance both at the beginning of FY2005 and the end
of FY2005.

                                                                                         September 30, 2005
                                                                                    Statement of
                                                                                     Budgetary       President's
United States Mint Public Enterprise Fund                                            Resources         Budget

Total Budgetary Resources                                                               $1,122,552            $1,051,255

Status of Budgetary Resources:
   Obligations Incurred                                                                  1,009,682               989,369
   Unobligated Balances-available                                                          112,870                61,886
Total Status of Budgetary Resources                                                     $1,122,552            $1,051,255
Net Outlays                                                                                 ($1,839)              ($1,839)



Note 20 Legal Arrangements Affecting Use of Unobligated Balances
United States Mint PEF establishes that all receipts from United States Mint operations and programs, including the production
and sale of numismatic items, the production and sale of circulating coinage, the protection of Government assets, and gifts
and bequests of property, real or personal shall be deposited into the United States Mint PEF and shall be available without
fiscal year limitations. Any amount that is in excess of the amount required by the United States Mint to cover obligations
shall be transferred to the Treasury for deposit as miscellaneous receipts. At September 30, 2006 and 2005, the United States
Mint transferred excess receipts to the Treasury General Fund of $750 million and $775 million, respectively.


Note 21 Custodial Activity
In FY 2006, the United States Mint had no custodial activity to report. However, in FY 2005, the United States Mint paid
$52.7 million to the Department of the Treasury for 8,790,913.21 FTO of Treasury's silver that was purchased by the United
States Mint to be used in the production of coins. The United States Mint paid Treasury six dollars an ounce for the silver.

At the end of FY05, the United States Mint owed Treasury 4,457,229.59 FTO’s for silver that was sold and not replaced. Part
of the purchase was to reimburse Treasury for that silver used as opposed to the United States Mint purchasing the silver on the
open market. In addition, Treasury decided that an additional 4,333,683.62 FTO’s was not needed to be held by Treasury.
Therefore, this silver was purchased and became United States Mint owned silver as opposed to Treasury silver. At the end of
FY05, the amount of Treasury owned silver held by the United States Mint as Custodian was exactly 16 million FTO’s.


Note 22 Hedging Program
The United States Mint has adopted a hedging program in FY 2006 to avoid fluctuation in silver costs as a result of the volatile
changes in market prices. The United States Mint purchases silver in large quantities and sells an interest in that silver to a
trading partner, while maintaining physical custody and title of the silver. Sales of silver to the trading partner are made at the
same spot price that the United States Mint paid to obtain the silver on the open market. The partner’s interest in Mint silver is
                                                                49                                                  (Continued)
reduced as finished silver coins are sold to approved purchasers (AP’s). Repurchases of the trading partner’s interest in the
silver occurs upon sale of coins by the Mint. Repurchases are made on the same day as sales, in the same quantity sold, and
using the same spot price as was used for the sale to the AP. Each sale to and from the purchaser carries a small transaction
fee, the selling and buying fees net to a cost of one half cent per ounce. To date, the United States Mint has incurred $41
thousand in hedging fees causing minimal impact on the statement of net cost.

The $39 million in hedging activity included in inventory represents the value of the silver sold to the trading partner and not
yet sold by the United States Mint, and therefore not repurchased from the trading partner. During the early phases of the
program, silver from existing United States Mint inventory was sold to the trading partner resulting in a $1.2 million gain to
the United States Mint.




                                                              50

Required Supplementary Information (Unaudited)




                      51 

                                     DEPARTMENT OF THE TREASURY
                                         UNITED STATES MINT
                           REQUIRED SUPPLEMENTARY INFORMATION (Unaudited)
                                FOR THE YEAR ENDED SEPTEMBER 30, 2006




Introduction
This section provides the Required Supplemental Information as prescribed by the Office of Management and Budget
(OMB) Circular A-136, “Financial Reporting Requirements.”

Heritage Assets
The United States Mint is steward of a large, unique, and diversified body of heritage assets that are both collection and
non-collection in nature. These items include a variety of rare and semi precious coin collections and historical artifacts,
and are held at various United State Mint locations. Some of these items are placed in locked vaults within the United
States Mint where access is limited to only special authorized personnel. Other items are on full display to the public
requiring little if any authorization to view. Items on display are accounted for and controlled for protection and
conservation purposes.

The United States Mint has created two categories to account for the large and varied stock of heritage assets. These
categories include coin collections and historical artifacts. The table below summarizes the Unites States Mint’s
collection and non-collection type heritage assets balance as of September 30, 2006. Overall, the United States Mint
heritage assets, both collection and non-collection type, are in good condition.


                                              Quantity of Items Held
Coin Collections                               September 30, 2006
Non Precious Metal Coin Collection                      1
Silver Coin Collection                                  1
Gold And Extremely Rare Coin Collection                 1
Total                                                   3



                                              Quantity of Items Held
Historical Artifacts                           September 30, 2006
Furniture Collections (includes antiques)               2
Equipment Collection                                    1
Total                                                   3




                                                            52 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                           Independent Auditors’ Report on Internal Control


Inspector General 

United States Department of the Treasury: 


Director 

United States Mint: 


We have audited the balance sheets of the United States Mint (Mint) as of September 30, 2006 and 2005
and the related statements of net cost, changes in net position, financing, custodial activity, and the
combined statements of budgetary resources (hereinafter referred to as “financial statements”) for the years
then ended, and have issued our report thereon dated December 8, 2006. That report refers to the Mint’s
implementation of a new accounting standard in fiscal year 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the Mint is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2006 audit, we considered the Mint’s internal control over
financial reporting by obtaining an understanding of the Mint’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide an opinion on the Mint’s internal control over
financial reporting. Consequently, we do not provide an opinion thereon.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Mint’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements caused by error or
fraud, in amounts that would be material in relation to the financial statements being audited, may occur

                                                                        53 

                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
and not be detected within a timely period by employees in the normal course of performing their assigned
functions. Because of inherent limitations in internal control, misstatements due to error or fraud may
nevertheless occur and not be detected.

In our fiscal year 2006 audit, we noted certain matters, discussed in Exhibit I, involving the internal control
over financial reporting and its operation that we consider to be a reportable condition. However, the
reportable condition is not believed to be a material weakness. Management responses are included in
Exhibit II.

INTERNAL CONTROLS OVER PERFORMANCE MEASURES

Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as
follows. Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that misstatements caused
by error or fraud, in amounts that would be material to a performance measure or aggregation of related
performance measures, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

Our consideration of the design and operation of internal control over the existence and completeness
assertions related to key performance measures would not necessarily disclose all matters that might be
reportable conditions.

As required by OMB Bulletin No. 06-03 in our fiscal year 2006 audit, with respect to internal control
related to performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in
operation. We limited our testing to those controls necessary to test and report on the internal control over
key performance measures in accordance with OMB Bulletin 06-03. However, our procedures were not
designed to provide an opinion on internal control over reported performance measures and, accordingly,
we do not provide an opinion thereon. In our fiscal year 2006 audit, we noted no matters involving the
design and operation of the internal control over the existence and completeness assertions related to key
performance measures that we considered to be material weaknesses as defined above.
                                                  *****

We noted certain additional matters that we have reported to management of the Mint in a separate letter
dated December 8, 2006.

This report is intended solely for the information and use of the Mint’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 8, 2006




                                                      54 

                                                                                                         Exhibit I
                                        THE UNITED STATES MINT
                                              Reportable Condition

                                               September 30, 2006


Improvement is needed in Financial Accounting and Reporting (Repeat Condition)

Appropriate management controls should be integrated into each policy and procedure established by the United
States Mint (Mint) to direct and guide its operations. Management controls are the organization, policies, and
procedures used by the Mint to reasonably ensure that: (i) programs achieve their intended results; (ii) resources
used are consistent with the Mint’s mission; (iii) programs and resources are protected from waste, fraud, and
mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely information is obtained,
maintained, reported and used for decision making. Management is responsible for developing and maintaining
effective internal control. Effective internal control provides assurance that significant weaknesses in the design
or operation of internal control, that could adversely affect the Mint’s ability to meet its objectives, would be
prevented or detected in a timely manner.

The Federal Managers Financial Integrity Act of 1982 (FMFIA) establishes overall requirements with regard to
internal control. “The agency head must establish controls that reasonably ensure that: (i) obligations and costs
are in compliance with applicable law; (ii) funds, property, and other assets are safeguarded against waste, loss,
unauthorized use or misappropriation; and (iii) revenues and expenditures applicable to agency operations are
properly recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
reports and to maintain accountability over the assets.”

The following paragraphs discuss weaknesses noted in the Mint’s internal control over financial reporting.

Assignment of Personnel Resources

Effective financial management requires sufficient human resources with appropriate skills and abilities. As
reported during fiscal year 2005, we noted that sufficient financial management personnel resources have not
been assigned to perform the many tasks needed to produce the financial statements and support the audit
process.

The Mint appointed an experienced management team to oversee the financial management function during the
third quarter in fiscal year 2006. This improved the Mint’s financial reporting process and ensured that the annual
audit was completed on schedule. Despite these improvements, we still noted that a small core group assumed
responsibility for preparing the interim and final financial statements, developing year-end estimates and
accruals, processing year-end adjustments, and providing most of the documentation, including explanations and
justifications, needed to complete the audit in a timely manner. As a result, we experienced delays in receiving
certain subsidiary information that reconciled to the general ledger and certain supporting documentation
requested during the audit.

While this small core group of personnel is to be commended for their high-quality work and dedication, the
Mint’s continuous reliance on the efforts of these individuals raises serious concerns about its ability to ensure
that future quarterly and annual financial statements will be submitted timely and the annual audit will be
completed on schedule.

Responsibility and accountability for compiling information and providing justification and explanations related
to the preparation of the Mint’s financial statements requires the involvement and input of many individuals and
activities, both within and outside the Office of Corporate Accounting, including the other Mint production

                                                       55                                              (Continued)
                                                                                                          Exhibit I
                                         THE UNITED STATES MINT
                                              Reportable Condition

                                               September 30, 2006


facilities. Moreover, assigning the varied responsibilities to a broader group of individuals would better provide
for the continuity of trained and knowledgeable personnel needed to prepare the financial statements and support
the audit process. It is also imperative that the Mint production facilities and department managers respond
timely and accurately to data requests from the Office of Corporate Accounting.

Financial Management Oversight

Monitoring the effectiveness of internal control should occur in the normal course of business throughout the
year. In addition, periodic review, reconciliations or comparisons of data should be included as part of the regular
assigned duties of personnel. Periodic assessments should be integrated as part of management’s continuous
monitoring of internal control, which should be ingrained in the Mint’s operations.

As reported in fiscal year 2005, we noted that management does not exercise appropriate oversight over the Mint
production facilities to ensure that transactions are appropriately recorded. We noted that financial management
is decentralized at the Mint production facilities and the current organizational structure provides the production
facilities with the authority to develop their own procedures. The policies and procedures performed varied
between production facilities, and in some instances, were not performed in accordance with Mint-wide policies
and procedures. In addition, some Mint personnel were still not aware of the related Mint-wide policies and
procedures, or the Mint did not perform reviews to assess the sufficiency of financial policies and procedures.

The Mint developed policies and procedure that require reconciliations to be signed-off by the preparer and
reviewer in the third quarter of fiscal year 2006. However, as noted in fiscal year 2005, there are no formal
policies and procedures that require journal entries to be signed-off by the preparer or reviewer.

Property, Plant and Equipment Management

Internal control should be designed to provide reasonable assurance regarding prevention or prompt detection of
unauthorized acquisition, use or disposition of assets. As reported in fiscal year 2005, the Mint conducted an
annual physical inventory of property, plant and equipment, and was unable to physically locate 301 items,
primarily information technology equipment. Following our recommendation in fiscal year 2005, the Mint
performed an extensive physical inventory of its property, plant and equipment at all facilities to identify assets
without proper identification numbers during fiscal year 2006. However, based on the results, we noted that
improvement is still required to ensure that all property is adequately safeguarded and properly accounted for.
Specifically, we noted the following:

•	 130 property items physically inspected were not included in the Asset Management Module of PeopleSoft
   until after the physical inventory was completed.

•	 The Mint was unable to physically locate 161 property items.

We noted that there was improvement in construction-in-progress (CIP), and items reviewed were appropriately
classified in fiscal year 2006. However, the Mint did not implement policies and procedures that require program
managers to communicate information regarding CIP projects to the Office of Corporate Accounting.



                                                        56	                                             (Continued)
                                                                                                       Exhibit I
                                       THE UNITED STATES MINT
                                             Reportable Condition

                                              September 30, 2006


Further, we noted that the Mint did not establish an internal review process that requires a supervisor to
systematically review the transactions recorded in the Asset Management Module of PeopleSoft. All transactions
are matched and approved in PeopleSoft by the same individuals, and thus adequate segregation of duties for
property transactions is compromised.

Budgetary Resources Accounting

As noted in fiscal year 2005, the Mint’s management elected to adopt and prepare its financial statements in
accordance with accounting standards issued by the Federal Accounting Standards Advisory Board, and this
required the Mint to account for and present transactions and balances on both a proprietary and budgetary basis.
The Mint’s general ledger system was implemented for presenting the financial statements in accordance with
the Financial Accounting Standards Board, and accordingly does not include the budgetary accounts in the
United States Government Standard General Ledger that support accounting for the budgetary effects of
transactions in compliance with the Federal Financial Management Improvement Act of 1996 (FFMIA).

We were informed that the Mint implemented Oracle on October 1, 2006, and that certain financial reporting
functions were outsourced to the Bureau of the Public Debt’s Administrative Resource Center (ARC) during
fiscal year 2007. However, for fiscal year 2006, we noted that the Mint still used a manual process to determine
the budgetary balances, as they do not have an integrated system to track and govern the status of obligations.

Funds control is a vital component of any Federal government operation. It requires that an obligation be
recorded prior to disbursement of funds. When a disbursement is processed, the financial management systems’
funds control function should compare the amount to be disbursed to the remaining amount of the obligation to
ensure funds remain available. The use of a manual process subjects the Mint’s overall funds control objective to
significant control risk.

Recommendations:

We continue to recommend that the Mint:

1	 Evaluate the existing financial management organizational structure and make appropriate changes to ensure
   that the Office of Corporate Accounting is provided with sufficient staff resources with the requisite skills
   and abilities to maintain the Mint’s accounting records and prepare timely financial reports.
2	 Establish procedures for performing periodic reviews to assess the sufficiency of financial policies and
   procedures and consistencies between production facilities.
3	 Develop procedures for providing oversight and guidance to the Mint production facilities and all
   departments within the Mint that provide key financial information.
4	 Implement formal policies and procedures that require all accounting records to be signed-off by both the
   preparer and a management level reviewer.

5	 Implement adequate security and physical control procedures to ensure that all assets are adequately
   safeguarded and properly accounted for.


                                                      57	                                            (Continued)
                                                                                                  Exhibit I
                                     THE UNITED STATES MINT
                                           Reportable Condition

                                           September 30, 2006


6	 Strengthen the policies and procedures over purchasing assets to ensure that all assets are recorded in
   the Asset Management Module of PeopleSoft timely, when received at the relevant locations.
7	 Implement policies and procedures requiring the program managers to communicate information
   regarding the status of the CIP projects to the Office of Corporate Accounting at or near each period
   end, and perform timely follow-up procedures to ensure that the Mint’s financial statements reflect the
   most current project status.
8	 Establish an internal review process that requires a supervisor to systematically review the transactions
   recorded in the Asset Management module of PeopleSoft timely.
9	 Develop Mint-wide policies and procedures for management to perform adequate review of all
   obligations. The policies and procedures should provide for central management control and review, to
   ensure adequate support for recorded amounts exists and that sufficient consideration is given to the
   legitimacy of unliquidated obligation amounts.

We recommend that the Mint work closely with ARC to ensure that:
10 The Oracle general ledger system fully uses the United States Government Standard General Ledger
   and will support accounting for the budgetary effects of transactions to ensure compliance with
   FFMIA.
11 The Oracle system records obligations as incurred and manages funds control at the transaction level.




                                                    58

     Exhibit II




59
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General 

United States Department of the Treasury: 


Director 

United States Mint: 


We have audited the balance sheets of the United States Mint (Mint) as of September 30, 2006 and 2005,
and the related statements of net cost, changes in net position, financing, custodial activity, and the
combined statements of budgetary resources (hereinafter referred to as “financial statements”) for the years
then ended, and have issued our report thereon dated December 8, 2006. That report refers to the Mint’s
implementation of a new accounting standard in fiscal year 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

The management of the Mint is responsible for complying with laws, regulations, and contracts applicable
to the Mint. As part of obtaining reasonable assurance about whether the Mint’s financial statements are
free of material misstatement, we performed tests of the Mint’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 06-03, including certain provisions referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Mint. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance with certain provisions of other laws and regulations discussed in the
third paragraph of this report, exclusive of those referred to in FFMIA, disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 06-03.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether the Mint’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger (SGL) at the transaction level. To meet this requirement, we performed test of compliance with
FFMIA Section 803(a) requirements.

                                                                        60
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
The results of our tests of FFMIA disclosed an instance, described below, where the Mint’s financial
management systems did not substantially comply with the SGL at the transaction level.

In fiscal year 2005, the Mint’s management elected to adopt and prepare its financial statements in
accordance with accounting standards issued by the Federal Accounting Standards Advisory Board
(FASAB), and this required the Mint to account for and present transactions and balances on both a
proprietary and budgetary basis. The Mint’s general ledger system was implemented for presenting
financial statements in accordance with the Financial Accounting Standards Board and not FASAB
accounting standards, and accordingly it does not include budgetary accounts. We continue to recommend
that the Mint develop and implement a general ledger system that fully complies with the SGL at the
transaction level and will support accounting for the budgetary effects of transactions to ensure compliance
with FFMIA.

This report is intended solely for the information and use of the Mint’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 8, 2006




                                                    61 

